<html>
<title> - GSA'S FAILURE TO MEET THE NEEDS OF THE JUDICIARY: A CASE STUDY OF BUREAUCRATIC NEGLIGENCE AND WASTE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   GSA'S FAILURE TO MEET THE NEEDS OF
                     THE JUDICIARY: A CASE STUDY OF
                   BUREAUCRATIC NEGLIGENCE AND WASTE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     COURTS, INTELLECTUAL PROPERTY,
                            AND THE INTERNET

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 19, 2014

                               __________

                           Serial No. 113-87

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
88-376                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ef9eef1defdebedeaf6fbf2eeb0fdf1f3b0">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Courts, Intellectual Property, and the Internet

                 HOWARD COBLE, North Carolina, Chairman

                TOM MARINO, Pennsylvania, Vice-Chairman

F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
Wisconsin                            JOHN CONYERS, Jr., Michigan
LAMAR SMITH, Texas                   JUDY CHU, California
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
DARRELL E. ISSA, California          KAREN BASS, California
TED POE, Texas                       CEDRIC RICHMOND, Louisiana
JASON CHAFFETZ, Utah                 SUZAN DelBENE, Washington
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                ZOE LOFGREN, California
RON DeSANTIS, Florida                SHEILA JACKSON LEE, Texas
JASON T. SMITH, Missouri             STEVE COHEN, Tennessee
[Vacant]

                       Joe Keeley, Chief Counsel

                    Heather Sawyer, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 19, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Courts, 
  Intellectual Property, and the Internet........................     1
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Ranking Member, Subcommittee on 
  Courts, Intellectual Property, and the Internet................     6
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     8
The Honorable John Conyers, a Representative in Congress from the 
  State of Michigan, Ranking Member, Committee on the Judiciary, 
  and Member, Subcommittee on Courts, Intellectual Property, and 
  the Internet...................................................    29

                               WITNESSES

The Honorable William P. Johnson, District Judge, United States 
  District Court, District of New Mexico
  Oral Testimony.................................................    33
  Prepared Statement.............................................    34
The Honorable Glen E. Conrad, Chief Judge, United States District 
  Court, Western District of Virginia
  Oral Testimony.................................................    53
  Prepared Statement.............................................    55
Jennifer L. Smith, Architect and Project Manager, United States 
  District Court, Western District of Virginia
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68
The Honorable Michael Gelber, Deputy Commissioner, Public 
  Buildings Service, U.S. General Services Administration
  Oral Testimony.................................................    72
  Prepared Statement.............................................    74

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Howard Coble, a 
  Representative in Congress from the State of North Carolina, 
  and Chairman, Subcommittee on Courts, Intellectual Property, 
  and the Internet...............................................     3
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    10
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    15
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    84

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable George Holding, a 
  Representative in Congress from the State of North Carolina, 
  and Member, Subcommittee on Courts, Intellectual Property, and 
  the Internet...................................................   106
Prepared Statement of Thomas A. Schatz, President, Citizens 
  Against Government Waste.......................................   114


                   GSA'S FAILURE TO MEET THE NEEDS OF 
                     THE JUDICIARY: A CASE STUDY OF 
                   BUREAUCRATIC NEGLIGENCE AND WASTE

                              ----------                              


                        THURSDAY, JUNE 19, 2014

                        House of Representatives

            Subcommittee on Courts, Intellectual Property, 
                            and the Internet

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2141, Rayburn Office Building, the Honorable Howard Coble, 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Coble, Goodlatte, Marino, Chabot, 
Poe, Farenthold, Holding, DeSantis, Bachus, Nadler, Conyers, 
Bass, Richmond, and Jackson Lee.
    Staff Present: (Majority), David Whitney, Counsel; Olivia 
Lee, Clerk; (Minority) Heather Sawyer, Minority Counsel; and 
Jason Everett, Counsel.
    Mr. Coble. Good morning, ladies and gentlemen. Good to have 
you with us.
    The Subcommittee on Courts, Intellectual Property and the 
Internet will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    We welcome all of our witnesses today.
    I think it is safe to say that most Americans have no idea 
what the General Services Administration is or what it does. 
But the agency is vast--it has more than 12,000 employees and 
is responsible for many of the behind-the-scenes operations 
that are intended to enable other agencies to better fulfill 
their constitutional and statutory duties.
    Among GSA's responsibilities is the management of the 
Federal Civilian Real Estate Portfolio. Included in this area 
is the management of the overwhelming majority of facilities 
that house Federal courts throughout the United States. This 
includes most stand-alone courthouses like the Domenici 
Courthouse, where the GSA spent $3.4 million to repair a water 
leak, and multi-tenant facilities like Roanoke's Poff Federal 
Building, where the GSA has spent $65 million and is asking for 
an additional $17 million without improving the functions or 
operations of its tenant agencies.
    While not knowing what the GSA does, I suspect many 
Americans, if prompted, would recall the GSA was in the 
headlines a few years ago. Some of you will remember that. That 
was when the public first learned that GSA officials conducted 
an $823 million training conference in Las Vegas that included 
a clown, a mind reader, and a reception that cost more than 
$30,000, including more than $7,000 for sushi alone.
    Americans were justifiably outraged at the GSA's 
irresponsible and outlandish behavior not merely because of the 
spending but also at the detachment associated with the GSA 
officials who approved and participated in the conference. At a 
time when many Americans had lost their jobs and were feeling 
the continuing effects of the recession, the images of GSA 
officials lounging in hot tubs and partying on the taxpayers' 
dime struck a chord in many instances.
    As a result of that scandal, the GSA Administrator, Martha 
Johnson, resigned, and she terminated the Commissioner of 
Public Buildings, Mr. Robert A. Peck, for his failures of 
leadership and judgment. To her credit, Ms. Johnson spoke 
plainly and acknowledged that a significant misstep had 
occurred and admitted that taxpayer dollars were squandered 
when she stepped down and fired Mr. Peck, who was her top 
advisor.
    Speaking plainly is something the American people deserve 
and should be able to expect from their public officials. 
Accountability, responsibility, and credibility are other 
characteristics that Americans are entitled to. But I am sorry 
to say there is no plain talk in the scripted statement of our 
GSA witness today. In fact, there is a massive disconnect 
between reality and his testimony.
    There are two possibilities when a situation like this 
occurs. Either the witness doesn't know the truth about the 
relationship between the agency where he works and the Federal 
courts, or he knows it and is attempting to deceive the Members 
of the Committee and the public. Neither possibility inspires 
confidence in GSA.
    Since there is no candor in the descriptive statement, 
let's take a look at what others in a position to know report 
to the Subcommittee, according to a letter from the Honorable 
Dean Brooks Smith, the Chair of the Judicial Conference's 
Committee on Space and Facilities, dated June 18 that I will 
make a part of the record without objection, to this Committee.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Coble. ``[We have] heard from courts and judges about 
the many frustrations they have experienced as a result of 
deficiencies in the GSA.''
    ``GSA, as the Judiciary's landlord, is solely responsible 
for the new construction, renovation, and alteration of our 
facilities as well as other property management services 
typically associated with a private-sector landlord.'' Judge 
Smith continues, ``Courts have legitimate complaints about GSA 
policies and services [to] include the following,'' and then he 
lists significant differences in the responsiveness and quality 
of the performance of GSA staff from region to region, project 
management issues including communications, scope management, 
scheduling and cost estimating, appraisal methodology and 
accuracy of rent bills, confusion as to how overtime utilities 
are calculated and billed, and potential excessive charges for 
these items and overall building management issues.
    In addition to Judge Smith's letter that speaks to the 
chronic and systematic failure of GSA to properly perform its 
duties with respect to the courts, the Subcommittee has been 
informed of a longstanding and serious concern regarding GSA's 
management and performance with respect to court facilities in 
North Carolina, Alabama and Puerto Rico over the last few days. 
With these concerns and those soon to be detailed by Judge 
Johnson, Chief Judge Conrad, and Ms. Smith, the Members of the 
Subcommittee and the public will soon be able to determine the 
truth for themselves.
    Far greater than the amount of taxpayer dollars spent by 
GSA on its Vegas adventure, and far more pernicious are the 
everyday examples of waste and mismanagement for which GSA is 
responsible. It is unfortunate that our GSA witness did not 
take this opportunity to be forthcoming and candid in its 
scripted statement today. As I stated earlier, the American 
people are entitled to expect accountability, responsibility 
and credibility from our public officials.
    And with that said, I will recognize the distinguished 
Ranking Member, the gentleman from New York, for his opening 
statement.
    Mr. Nadler. Thank you, Mr. Chairman.
    The purpose of today's hearing is to consider whether 
taxpayer dollars are being wasted when it comes to renovation 
of our Federal courthouses. This is an important issue, and the 
Committee with jurisdiction, the Transportation and 
Infrastructure Committee, is already exploring it.
    Management of the government's public buildings is not 
within this Committee's jurisdiction, and this hearing does not 
involve funding issues central to the Judiciary's ability to 
fulfill its constitutional obligations or manage its critical 
operations, considerations that are within our jurisdiction.
    The fact that some public buildings house Federal courts 
does not itself explain or justify injecting this Committee 
into the oversight of those buildings or of GSA. This is 
particularly true when we have not yet held a single hearing on 
the impact that sequestration and short-sighted budget cuts 
have had on the Judiciary's ability to fulfill constitutionally 
required and congressionally imposed duties.
    There are undoubtedly legitimate concerns regarding 
particular renovation projects, and I appreciate the efforts of 
Judges Conrad and Johnson and Ms. Smith to explain some of them 
to us today. Although they are speaking in their individual 
capacities and none is representative of the Judiciary as a 
whole, I commend their commitment to ensuring greater 
accountability and improving GSA service delivery going 
forward. There is no question that Members on both sides of 
this Committee take seriously allegations of waste, 
particularly in times of fiscal constraint. My concern is 
whether today's hearing represents the best use of this 
Committee's resources.
    The Transportation and Infrastructure Committee already is 
well aware of the problems with the Poff Courthouse, which is 
located in Chairman Goodlatte's district, and it is otherwise 
actively engaged in robust oversight of GSA. That Committee 
held a hearing in 2011 on the Poff renovation, and Chairman 
Goodlatte testified about his concerns at that time.
    We will hear more today about ongoing concerns with the 
Poff Courthouse renovation, as well as with concerns regarding 
the Domenici Courthouse in Albuquerque, New Mexico. While 
today's hearing highlights these two projects as ostensible GSA 
failures, it is notable that GSA only learned of complaints 
about the Domenici Courthouse after being notified of this 
hearing just last week, on the same day that the Majority 
issued the public hearing notice.
    The failure to alert GSA or to ask for its response before 
scheduling this hearing does not demonstrate genuine interest 
in meaningful engagement with the agency. As we hear about 
problems with particular projects, we should also not lose 
sight of the fact that GSA owns and operates more than 9,000 
properties across the United States. The Judiciary rents space 
in approximately 779 different GSA-managed buildings. Learning 
about problems in a handful of locations does not provide the 
necessary background, expertise, and context to engage in 
appropriate oversight of these 779 buildings managed by GSA and 
occupied by the courts, at least partially by the courts. That 
responsibility lies and should remain with the Transportation 
and Infrastructure Committee, of which I am also a Member.
    GSA is the subject of robust oversight and well-deserved 
criticism by its Committee of jurisdiction. Some of that 
oversight has involved particular courthouse projects. I am not 
aware, however, of any formal complaint ever coming from the 
Judicial Conference of the United States regarding the GSA's 
management of courthouse buildings.
    The Conference did notify us just yesterday that it 
recently initiated a partnership with the GSA to identify and 
address concerns that judges have with deficiencies in GSA 
service delivery. I understand that Chairman Goodlatte also has 
requested that the Government Accountability Office examine the 
GSA selection process with regard to facilities renovated using 
American Recovery and Reinvestment Act, otherwise known as 
stimulus, funding.
    These reviews may identify system-wide issues that need to 
be addressed, or may not. To the extent they do, I hope that 
the Members of this Committee will work with and through our 
colleagues on the Transportation and Infrastructure Committee. 
It is that Committee and not this one that needs to continue 
holding GSA's feet to the fire.
    This Committee has plenty of business on its agenda. Moving 
forward, I hope that our Committee will devote its time and 
resources to solving the critical funding issues that truly 
involve the unique interests of the Judiciary and leave 
oversight and management of public buildings where it belongs.
    With that, I yield back the balance of my time.
    Mr. Coble. I thank the gentleman.
    The Chair recognizes the distinguished gentleman from 
Virginia, the Chairman of the full House Judiciary Committee, 
for his opening statement.
    Mr. Goodlatte. Mr. Chairman, thank you very much, and thank 
you for holding today's hearing.
    This hearing concerns matters of critical importance to 
American taxpayers and all who rely upon our Federal courts to 
adjudicate their constitutionally-protected rights and dispense 
justice. We are joined by a distinguished panel of witnesses 
that includes two Article III Federal judges, a dedicated and 
professional employee of the Federal Judiciary, and the Deputy 
Commissioner of the GSA's Public Buildings Service.
    The purpose of today's hearing is to begin a public 
examination in this Committee of longstanding issues between 
the GSA, which is charged with managing the Federal Civilian 
Real Estate Portfolio, and one of its major tenants, the 
Federal courts. This examination is urgently needed because the 
Subcommittee is charged with the responsibility of ensuring 
that our Federal Judiciary has the ability to perform its 
constitutionally-required and statutorily-directed 
responsibilities. Essential to the performance of these duties 
is the ability to operate in safe, secure, and sound physical 
spaces, whether in a stand-alone U.S. courthouse or in a multi-
tenant Federal building. In some instances, including the 
example of the Poff Federal Building in Roanoke, Virginia, the 
GSA has abysmally failed in its mission to provide superior 
workplaces for Federal customer agencies at good economies to 
the American taxpayer, which is their mission.
    This hearing builds on one conducted in April 2011 under 
the leadership of Chairman Shuster and then-Subcommittee 
Chairman Jeff Denham of the Committee on Transportation and 
Infrastructure's Subcommittee with jurisdiction over public 
buildings. That oversight hearing directly examined whether 
GSA's management and execution of contracts for the greening 
and modernization of the Poff Federal Building violated Federal 
law and led to taxpayers being charged excessive amounts for 
the work.
    At that hearing, which occurred before GSA had broken 
ground, GSA's own Inspector General testified, and I quote, 
``GSA has an obligation to spend the taxpayers' money on sound, 
well-thought-out projects that make the best use of taxpayer 
dollars. Our reviews show that GSA does not always meet this 
obligation, and did not do so here at the Poff Federal 
Building.''
    The IG found that the GSA had failed to get an independent 
government estimate for construction as required by the Federal 
Acquisition Regulations, and violated Federal law in awarding 
the construction contract by advertising the guaranteed maximum 
price the government would pay. As a result, each of the ten 
bids received were identical and, unsurprisingly, at the 
maximum amount.
    One direct result of GSA's violation of Federal law was 
that the IG recommended the agency not exercise options in the 
contract that would have improved the building's security and 
led to building code and life safety improvements. Startlingly, 
this is one recommendation that GSA was more than willing to 
follow.
    Also testifying in April 2011 was Ms. Julia Dudley, the 
Clerk of Court at the Poff Federal Building. Ms. Dudley 
correctly anticipated a number of impacts on the court, noting 
the ability of court employees to perform their duties would be 
negatively affected by repeated moves, losses of space and 
facilities, shifting of burdens onto court personnel, and even 
disruptions to court security systems and IT infrastructure.
    Notwithstanding the public shaming of GSA and repeated 
concerns expressed by public officials, including myself, 
Senators Warner and Webb, and court officials regarding GSA's 
justifications, decision-making, and management of the Poff 
renovation, GSA refused to alter its course in a manner that 
would have improved the value received by Federal taxpayers or 
the ability of its Federal Judiciary tenants to perform their 
duties.
    Since that hearing, GSA has declared its work at the Poff 
Federal Building substantially complete. The project, which was 
originally budgeted at approximately $51 million, has already 
cost taxpayers in the neighborhood of $65 million, and GSA is 
requesting an additional $17 million. A large portion of the 
initial increase is attributed to the GSA's failure to 
anticipate the need to move the Veterans Affairs Regional 
Office out of the building for 3 years. That failure to plan 
cost taxpayers approximately $11 million while imposing 
incalculable costs on Roanoke Valley veterans.
    In addition, GSA claims to have not foreseen the need to 
replace two 14-story brick walls that began to collapse in 
2012, threatening the safety of court employees and the public 
and causing the court to shut down for a week. That condition 
is now estimated to cost $6 million to repair.
    Notwithstanding GSA's lack of foresight, it turns out the 
agency had repaired the wall once before, but it evidently did 
so in such a negligent manner that it posed a danger to life 
and safety, at least while the building was undergoing a major 
renovation.
    Mr. Chairman, I request permission to enter into the record 
an article entitled ``Bricks Try Patience of Court Workers At 
Poff Building,'' which was written by Laurence Hammack and 
published in the December 2, 2012 Roanoke Times. The article 
describes some of the impact on the court of GSA's 
mismanagement of this project.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. According to the GSA, Federal courthouses 
comprise nearly one-quarter of GSA's owned portfolio. That 
percentage contributes an enormous amount to GSA's bottom 
line--the rent it collects from Federal tenants.
    While I am disappointed in the testimony of our GSA 
witness, I am not at all surprised by its non-responsiveness in 
refusing to address the particulars of the two cases before the 
Subcommittee today. The Poff case and the expenditure of $3.4 
million to win a landscaping design award at the Domenici 
Federal Courthouse in Albuquerque, New Mexico, when all that 
was needed was a fix to a simple leak are inexcusable. If I 
were called to defend the actions of my employer in violating 
Federal contracting law and repeatedly failing to prioritize 
security and life safety improvements over other projects, then 
I wouldn't want to defend those choices either.
    These cases are symptomatic of a larger problem, though. 
GSA's arrogance, refusal to consult and engage in meaningful 
pre-project planning with local court officials, inability to 
perform projects on time and on budget, and the lack of 
qualified on-site supervision not only costs taxpayers an 
enormous amount of money, it also shifts costs to the 
Judiciary, jeopardizes the safety and security of judges, court 
employees and the public, and impairs the essential duties of 
Federal courts to perform their constitutional duties.
    Our GSA witness can paint a rosy picture of the 
relationship between GSA and the courts, describing it as a 
``close relationship'' where projects are ``jointly 
prioritized'' and ``joint efforts'' are made ``to improve 
planning and drive down the overall cost of the Judiciary's 
space needs,'' but he and the Members of this Committee know 
the truth. The Judiciary does not have joint responsibility for 
determining how its space needs are met, nor do they have 
control over the rent GSA collects.
    The two projects we focus on today are likely the tip of 
the iceberg. Since announcing this hearing a week ago, we have 
received reports from several judicial districts around the 
country that involve similar concerns about GSA's ineptitude, 
incompetence, and lack of responsiveness.
    As an example, Mr. Chairman, I ask permission to enter into 
the record four documents that were received yesterday from the 
Honorable Aida M. Delgado-Colo'n, the Chief Judge of the U.S. 
District Court in the District of Puerto Rico.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Goodlatte. Judge Colo'n describes a situation where GSA 
has taken 2 years to determine a method to terminate an 
allegedly incompetent contractor and jeopardized the completion 
of a project that cost more than $99 million. According to 
Judge Colo'n, our GSA witness today, Deputy Commissioner 
Michael Gelber, has known about this situation for some time. 
And yet, to date, progress continues to lag.
    And 2 days ago, the Director of the Administrative Office 
of the United States Courts sent a memo to the chief judges of 
all United States Courts. The memo states, in part, that the 
Administrative Office ``and the Judicial Conference's Space and 
Facilities Committee have long been searching for a way to hold 
GSA more accountable for the services it provides to the courts 
for the more than $1 billion in rent the Judiciary pays to the 
GSA each year. Disagreements on the rent GSA charges the 
Judiciary, on project delivery and estimates, on overtime 
utilities, and on space assignments and billing validation have 
been longstanding issues.''
    Judges and local court officials are clearly thankful that 
this Subcommittee is seeking to hold GSA accountable, and many 
are approaching us, anxious to tell their stories of waste, 
arrogance, and indifference at the hands of the GSA.
    In addition, I want to inform the Members of the 
Subcommittee that the Government Accountability Office is 
conducting a systematic review of all courthouse projects 
undertaken by GSA under the authority of the stimulus bill.
    I am pleased to report that Chairman Shuster, the Chairman 
of the Committee on Transportation and Infrastructure, which 
has direct oversight over GSA's operations and management of 
the Federal Civilian Real Estate Portfolio, has joined me in 
the effort to study GSA's mismanagement of the billions 
expended pursuant to this authority.
    In a very real sense, GSA's mismanagement of court 
facilities imposes a hidden tax on the operations of our 
Federal courts and impedes American justice.
    I thank the Chairman for conducting this hearing. 
Notwithstanding the GSA's continuing efforts to obfuscate and 
evade responsibility, I welcome today's hearing as a step 
forward in holding GSA and its officials accountable publicly 
for their conduct.
    Thank you, and I yield back.
    Mr. Coble. I thank the gentleman.
    The Chair recognizes the distinguished gentleman from 
Michigan, Mr. Conyers, for his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman and Members of the 
Committee. And I welcome the distinguished witnesses that are 
here.
    I sometimes think I am in a Transportation Committee 
hearing. We don't have jurisdiction over many of the issues 
that have already been raised. They are not squarely within our 
Committee's jurisdiction. What we are concerned about here on 
this Committee is the Judiciary's constitutional obligations 
and fundamental operations. The Federal courthouse renovation 
projects are not funded from Federal Judiciary appropriations 
for which our Committee is responsible for authorizing in the 
ordinary course of events. Rather, funds for these projects are 
derived from appropriations allocated to the General Services 
Administration, GSA, which is charged with addressing the 
building facility needs of the Federal Judiciary and which is 
subject to the Transportation and Infrastructure Committee's 
jurisdiction.
    So we seem to be searching for some answers to questions 
that more appropriately belong in yet another distinguished and 
important Committee of the House of Representatives. In fact, 
the other Committee has already held a hearing examining many 
of the same issues that we expect to explore today, at least 
with respect to the Poff Courthouse. Thus, it is unclear why 
our Committee is insinuating itself into an area that is not 
properly in our jurisdiction.
    Now, today's hearing focuses on just two court facilities 
out of approximately 779 GSA-managed buildings for which the 
Federal Judiciary pays rent. These Federal Judiciary facilities 
account for more than 42 million square feet of space and 
include 446 Federal courthouses. Unfortunately, GSA has 
received sometimes well-deserved criticism with respect to how 
it manages these properties and otherwise operates. But the 
Deputy Commissioner was only notified last week about this 
hearing, and a lot of it, as we can tell, already turns around 
the GSA.
    I am wondering if we would have even had a GSA witness 
present had it not been for the determination of our staff to 
make sure that we hear all sides of this issue.
    Nevertheless, I am unaware of any formal complaint from the 
Judicial Conference of the United States regarding GSA's 
management of Federal courthouse facilities. In fact, the 
Conference notified us just yesterday that it intends to study 
this very issue on a comprehensive survey and working group 
collaborative format with GSA, and I think that is a copy of 
the letter I have from the distinguished Ranking Member of this 
Subcommittee, Jerry Nadler, and I ask unanimous consent to put 
it in the record. Thank you.*
---------------------------------------------------------------------------
    *See submission, page 3.
---------------------------------------------------------------------------
    Mr. Coble. Without objection.
    Mr. Conyers. In fact, the Conference notified us just 
yesterday that it intends to study this very issue based on a 
comprehensive survey and working group collaborative format 
with the General Services Administration. It has further been 
told to me that the Chairman of the full Committee, Mr. 
Goodlatte, has requested the GSA to examine how it went about 
selecting court facilities for renovation under the American 
Recovery and Reinvestment Act.
    So it strikes me as a bit premature to conduct a hearing on 
just two facilities when there are ongoing efforts to undertake 
a system-wide review of the GSA management and renovation of 
all Federal court buildings.
    Now, I am pleased that our distinguished Members of the 
Judiciary, Judges Conrad and Johnson, as well as Ms. Smith, 
have significant concerns about various aspects of GSA handling 
of the renovation projects at their respective courts. Although 
these witnesses speak in their individual capacities and not on 
behalf of the Federal Judiciary as a whole, I commend their 
commitment to ensuring transparency and accountability with 
respect to the expenditure of Federal money for these purposes.
    It is my hope that GSA will carefully consider their 
serious concerns and seek to improve how it can better prepare 
court personnel about the scope and anticipated disruptive 
effects that such renovation projects can or usually entail.
    Finally, if our goal is meaningful engagement with the GSA 
on its work in our Federal court buildings, then we should 
endeavor to do so in an ongoing and bipartisan fashion, and 
unfortunately that does not seem to have happened here. My 
understanding is that GSA was only made aware of and invited to 
testify at this hearing on the same day that the Majority 
issued its public hearing notice. So, in fact, GSA was unaware 
of any complaints from my colleagues on the other side of the 
aisle about the Domenici Courthouse in Albuquerque, New Mexico.
    Although today's oversight hearing apparently focuses on 
just two case studies, I hope Mr. Gelber on behalf of GSA will 
provide some perspective on some of the other renovation 
projects that are underway or under consideration. For example, 
I know that GSA is preparing a renovation activity in the 
Detroit Federal Courthouse, the Levin Courthouse in Detroit, a 
long overdue project that will modernize and preserve an 
historic courthouse that has served the hub of the Federal 
justice system in our area for over 80 years.
    Chief U.S. District Judge Gerald Rosen very much welcomes 
this renovation, as do I, because it not only will preserve a 
major historic landmark for the City of Detroit but contribute 
to the revitalization of the city through the creation of new 
jobs and opportunities for development.
    So I commend Subcommittee Chairman Coble and the full 
Committee Chairman Goodlatte for their concern in ensuring 
taxpayer dollars are properly accounted for and that Federal 
courthouse renovation projects entail no wasteful expenditures.
    Equally deserving of the Committee's consideration, 
however, is whether the Federal Judiciary is adequately funded 
to meet all of its constitutionally mandated responsibilities, 
as well as those imposed by Congress. As you may recall, the 
sequestration cuts that went into effect last year forced the 
Federal Judiciary to delay trials, to recess trials, to reduce 
or furlough staff, and cut electronic and GPS monitoring of 
some offenders. In fact, the Federal Defender Program 
instituted lengthy furloughs and cut its staff by more than 10 
percent, thereby threatening the Judiciary's ability to meet 
its obligation to provide counsel to indigent defendants, as 
constitutionally required.
    And so, along with some of my colleagues in the House, we 
wrote the Chief Justice of the United States, John Roberts, 
expressing serious concerns about how these budget cuts were 
impacting that program, and we are trying to restore some of 
the lost funding for the Judiciary, which was partially 
achieved through the Congress' passage of a continuing 
resolution and the bipartisan Budget Act of 2013.
    So I encourage my colleagues to be sensitive to the 
discussions that go on this morning with our distinguished 
witnesses and that we work as cooperatively as possible to best 
effectuate the Federal Judiciary's imperative mandate to serve 
all who seek justice.
    I thank you for the time allotted and I yield back.
    Mr. Coble. I thank the gentleman.
    Without objection, statements from other Members will be 
made part of the record.
    We have a very distinguished panel today. I will begin by 
swearing in our witnesses prior to introducing them.
    If you all would please stand?
    [Witnesses sworn.]
    Mr. Coble. Let the record reflect that all responded in the 
affirmative.
    Our first witness this morning is the Honorable William P. 
Johnson, United States District Court for the District of New 
Mexico. In August of 2001, President George W. Bush nominated 
Judge Johnson to the Federal bench, and in December of 2001 the 
United States Senate confirmed Judge Johnson.
    From 2006 until 2013, Judge Johnson served as the 10th 
Circuit's Representative to the Judicial Conference Committee 
on Space and Facilities. During this time, Judge Johnson dealt 
with space and facilities issues at the national and circuit 
level, including new courthouse projects, courthouse renovation 
projects, and the closure of non-resident courthouses to reduce 
the Judiciary's footprint.
    Judge Johnson received his J.D. from the Washington and Lee 
University School of Law and his B.A. from the Virginia 
Military Institute.
    You went a long way from your roots Judge, but good to have 
you here.
    Our second witness is the Honorable Glen E. Conrad, the 
United States Chief Judge for the Western District of Virginia. 
In April of 2003, President George W. Bush nominated Judge 
Conrad as a U.S. District Judge for the Western District of 
Virginia, and the United States Senate confirmed his nomination 
in a unanimous 89-0 vote in September of 2003.
    Prior to his current position, from 1976 to 2003, Judge 
Conrad served as a magistrate judge in the Western District of 
Virginia's Abingdon, Charlottesville, and Roanoke divisions. 
Judge Conrad is a member of the Civil Justice Reform Act 
Advisory Committee and the Western District of Virginia Court 
Security Committee. He received both his J.D. and B.A. in 
Government from the College of William and Mary.
    Good to have you with us, Judge, as well.
    Our third witness is Ms. Jennifer Smith, Architect and 
Project Manager for the Western District of Virginia. In her 
position, Ms. Smith managed both the Poff Federal Building 
renovation and Abingdon Courthouse renovation on behalf of the 
Federal courts. Ms. Smith has 16 years of experience in the 
design and construction industry, and 11 years' experience as 
project manager and design lead. She received her M.A. in 
Architecture from Yale University and her B.S. in Architecture 
from the University of Virginia. Ms. Smith is a registered 
architect in the Commonwealth of Virginia.
    Good to have you with us, Ms. Smith.
    And our final witness this morning is the Honorable Michael 
Gelber, who is Deputy Commissioner of GSA's Public Buildings 
Service. In his position, Mr. Gelber serves as the Service's 
Chief Operating Officer. The Public Building Service designs, 
develops, renovates and manages a real estate portfolio for 
approximately 378 million square feet of space in more than 
9,000 owned and leased properties in the United States, as well 
as six territories.
    Prior to his current position, Mr. Gelber was the agency's 
Federal Acquisition Service Regional Commissioner in the 
Pacific Rim Region. He is a graduate of Columbia University and 
possesses a Bachelor's degree in history. He also attended the 
University of Chicago.
    Mr. Gelber, good to have you with us as well.
    Good to have all of you with us.
    Folks, you will note there are two light panels on your 
table. That is the warning of the timeframe. When the green 
light illuminates to orange, that is your warning that you have 
1 minute remaining. You will not be severely punished if you 
don't wrap it up immediately, but if you keep in mind that it 
is on or about a minute to go when that amber light appears.
    Good to have all of you with us.
    Judge Johnson, we will start with you.
    Judge, if you would pull that mic a little closer to you.

TESTIMONY OF THE HONORABLE WILLIAM P. JOHNSON, DISTRICT JUDGE, 
      UNITED STATES DISTRICT COURT, DISTRICT OF NEW MEXICO

    Judge Johnson. Mr. Chairman, Members of the Subcommittee, 
it is a distinguished honor for me to have the opportunity to 
be here this morning. I thank you for the Subcommittee's 
invitation to testify.
    I prepared a written statement concerning the sustainable 
landscape project that the GSA did on the Albuquerque 
courthouse. It is the Domenici Courthouse. It was named by 
Congress in honor of Senator Pete Domenici. He was New Mexico's 
longest serving United States Senator. My statement is in the 
record, so I see no purpose in reading that statement again. I 
would be happy to answer any questions.
    One thing I would say is that obviously the statement 
focused on the landscape project. But one thing, and I tried to 
incorporate this in my statement, that the Domenici Courthouse 
was completed in 1998, and it was done on time and under budget 
at a cost of $41 million. This is 16 years ago. It is an 
impressive public building. I attached some photos to the back. 
But again, I think it should be noted that at the time it was 
built, 16 years ago, it was on time and under budget, which I 
think is a significant achievement of the General Services 
Administration.
    With that, I will yield back the rest of my time, and I 
stand for any questions.
    [The prepared statement of Judge Johnson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Coble. Well, you beat the amber light considerably, 
Judge. You are well timed this morning.
    Judge Conrad, good to have you with us, sir.

TESTIMONY OF THE HONORABLE GLEN E. CONRAD, CHIEF JUDGE, UNITED 
      STATES DISTRICT COURT, WESTERN DISTRICT OF VIRGINIA

    Judge Conrad. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Ranking Member----
    Mr. Coble. Judge, if you would pull that mic a little 
closer to you?
    Judge Conrad. Thank you. Good morning, and good morning to 
Ranking Member Nadler and esteemed Members of the Subcommittee. 
My name is Glen Conrad, and I am currently the Chief Judge of 
the United States District Court for the Western District of 
Virginia. I have been Chief Judge since July of 2010 at a time 
shortly after the designation of the Richard H. Poff Federal 
Building in Roanoke for a stimulus project under the authority 
of the American Recovery and Reinvestment Act. Thank you for 
the opportunity to share our court's experiences as the ARRA 
project unfolded, with emphasis on our interaction with GSA.
    The theme of my testimony this morning is that the quality 
of the final product achieved through the expenditure of the 
Poff stimulus funds was greatly diminished because Third Branch 
officials did not have the opportunity to offer input during 
the project's design phase and planning stages. I also suggest 
that the compromise in the court's performance of its 
constitutional function during the construction phase could 
have been better managed had there been more precise 
communication between the GSA and the courts.
    Following the announcement of the Poff stimulus project, 
the chief judges of our district participated in only three 
documented meetings regarding the proposed work. These meetings 
dealt with how the work would proceed, including the temporary 
relocation of all the other tenants in our building, the 
dislocation of the court personnel as the window removal and 
replacement proceeded, and security precautions. To my 
knowledge, at no point were any of the court's representatives 
consulted as to how this remarkable infusion of money could be 
utilized to produce a more serviceable and functional facility. 
Except for those few limited contacts, it was as if a wall of 
silence had been established with the court on one side and the 
project contractor and GSA on the other.
    All of this begs the question as to what the court would 
have communicated and what measures we would have implemented 
if we had been consulted and advised. As supplemented by my 
written statement of testimony, allow me to highlight a few 
critical considerations.
    First, the Poff Building is a multi-tenant facility in 
which the United States District Court and the Veterans 
Administration are the major tenants. I have heard no one 
suggest that multi-tenant Federal courthouses are not obsolete. 
Because the Third Branch was not given the opportunity to 
participate in the discussion about the Poff Building during 
the design and planning stages, the court's views as to the 
building's replacement alternative simply were not considered.
    Two, because of the lack of involvement in the planning 
stage of the project, I believe that the impact caused by the 
construction work was unduly disruptive and that the court's 
function and role and the importance of its image were not 
adequately considered by those who oversaw the project.
    Three, regrettably, despite the expenditure of substantial 
sums, I submit that security at the Poff Building was not 
enhanced as a result of the stimulus project and that in one 
critical respect our security has been diminished.
    Four, for me, the most bothersome and disturbing reality is 
that 5 years from the announcement of the Poff stimulus project 
and after the expenditure of millions of taxpayer dollars, the 
user functionality in the court portion of the building has not 
been enhanced in any way, shape or form. The Poff Building was 
constructed in the 1970's. The building has multiple design 
flaws which impede efficiency and safety for the court, for 
those who work in the court, and for employees of other 
agencies who must traverse court areas in order to reach their 
own places of work. If GSA had collaborated with the court in 
the design and planning stages, it is reasonable to believe 
that most of the design flaws could have been easily remedied, 
in most cases at minimal expense.
    In conclusion, during my 39 years in the Western District 
of Virginia, it has been my experience that court officers and 
GSA officials work reasonably well together when they engage in 
open discussion and free exchange of ideas and information. On 
this occasion, however, I must conclude that we did not enjoy 
positive collaboration with GSA on the Poff stimulus project 
and that, as a result, the final project suffered. I hope that 
my comments will prove useful in helping to ensure that other 
courts will have better experiences with GSA in the future.
    Mr. Chairman, I would be happy to entertain questions as 
the Committee may have for me.
    [The prepared statement of Judge Conrad follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Coble. Thank you, Judge.
    Ms. Smith?

TESTIMONY OF JENNIFER L. SMITH, ARCHITECT AND PROJECT MANAGER, 
   UNITED STATES DISTRICT COURT, WESTERN DISTRICT OF VIRGINIA

    Ms. Smith. Good morning, Chairman Coble, Chairman 
Goodlatte, Ranking Members Nadler and Conyers, and esteemed 
Members of the Subcommittee. Thank you for inviting me to 
present testimony on the impacts of the ARRA modernization 
project at the Richard H. Poff Federal Building.
    My name is Jennifer Smith, and I am the Project Manager and 
Architect for the U.S. District Court in the Western District 
of Virginia. Since March of 2011, my primary job responsibility 
has been representing the courts in daily interaction with GSA 
and the general contractor responsible for construction.
    Chief Judge Conrad has given testimony about the hardships 
encountered by the courts during construction. I will offer a 
few examples.
    A certain amount of disruption was expected with 
construction, but the magnitude of disruption at the Poff 
Building was at times overwhelming. For example, we had five 
floods in occupied space during a 17-month period. These were 
major deluges of gallons and gallons of water which collapsed 
ceilings, saturated walls and carpets. Occupants had to be 
relocated and finishes had to be replaced.
    We also had frequent loss of power which, although very 
disruptive to staff, usually caused no damage. One notable 
exception occurred when an electrician cut the circuit which 
feeds our server room. Two servers were destroyed, public 
Internet and phones were disrupted, and IT staff worked hours 
of overtime to restore systems.
    Installation of the new 12-story curtain wall created an 
intolerable amount of noise. Workers hammer-drilled locations 
for new steel anchors in hundreds of locations on the face of 
the building. The work took place immediately adjacent to 
occupied space at the exterior walls of staff offices. Noise 
and vibration traveled through the concrete slab and disrupted 
court proceedings as well. This work activity should have only 
been planned for off hours. It was conducted almost exclusively 
during work hours.
    Most disturbing of all the problems we saw was GSA's lack 
of enforcement of life safety codes during construction. Fire 
exits were frequently blocked by scaffolding, debris and 
fencing; smoke detectors were left covered; flammable material 
was used as wall and floor protection in exit access corridors; 
construction doors leading to work areas open to five-story 
drops were left open, unlocked and accessible to the public. 
These are just a few examples of what court staff struggled 
with every day for 3 years.
    Almost without exception, I worked directly with the 
general contractor to resolve these problems. GSA had no on-
site staff to fulfill this vital function. GSA project 
management staff in Philadelphia visited monthly, except during 
a travel restriction period when they didn't visit at all. The 
GSA field office representative, originally tasked with filling 
many of the functions I assumed, left on medical leave and was 
never replaced. In the end, it was the general contractor's 
willingness to cooperate on scheduling issues, which allowed 
the courts to continue to function at all.
    In conclusion, it is my hope that future projects planned 
to repair our retaining walls, brick veneer and parking garage 
will benefit from GSA's full consideration of our problems 
during the ARRA project.
    Thank you, Mr. Chairman, Ranking Members Nadler and 
Conyers, and Members, for your time today. I will be pleased to 
answer any questions you may have.
    [The prepared statement of Ms. Smith follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Coble. Thank you, Ms. Smith.
    Mr. Gelber? Mr. Gelber, pull that mic closer to you.

TESTIMONY OF THE HONORABLE MICHAEL GELBER, DEPUTY COMMISSIONER, 
 PUBLIC BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Good morning, Chairman Coble, Chairman 
Goodlatte, Ranking Member Conyers, Ranking Member Nadler, and 
Members of the Committee. My name is Michael Gelber, and I am 
the Deputy Commissioner of GSA's Public Buildings Service.
    GSA's mission is to deliver the best value in real estate, 
acquisition, and technology services to government and the 
American people. As part of this mission, GSA maintains a close 
partnership with the Administrative Office of the United States 
Courts to meet the nationwide space needs of the Judiciary in 
as cost-effective a manner as possible.
    I look forward to outlining our partnership with the 
courts, how investments for the Judiciary's space needs are 
jointly prioritized, challenges facing these investments, and 
joint efforts to improve planning and drive down the overall 
cost of the Judiciary's space needs.
    GSA works with the courts to create and maintain facilities 
that expedite the efficient and secure administration of 
justice. A significant representation of this partnership is 
GSA's work to make needed investments both in new courthouses 
prioritized by the courts, as well as existing facilities where 
the Judiciary retains long-term space needs.
    In selecting courthouse construction projects, the courts 
identify their most pressing space, security, and other 
operational needs. Since 1996, the Judiciary has prioritized 
proposed new construction in a 5-year plan that incorporates a 
number of best practices for capital planning, and GSA works to 
include projects from that plan into GSA's annual 
appropriations requests. For the projects that Congress 
approves and appropriates, such as Mobile, Alabama in Fiscal 
Year 2014, GSA pursues design solutions that maximize the 
positive civic impact of budgeted resources.
    Since 1991, GSA has completed the construction of 80 
courthouses for the Judiciary. In that time, Congress has 
funded $8 billion for site design and construction of these, as 
well as 13 other courthouses that are currently in design or 
construction phases.
    GSA also executes critical major repair and alteration 
projects at existing courthouses within the Federal inventory. 
Unfortunately, between Fiscal Years 2011 and 2013, GSA's 
capital budget requests were cut by roughly 80 percent, 
severely curtailing investment for the courts and the Federal 
agencies that GSA serves.
    The Fiscal Year 2014 appropriations represented a 
meaningful step forward in beginning to address the backlog of 
critical capital projects government-wide. In the Fiscal Year 
2014 program, GSA is making more than $180 million in specific, 
significant investments in Federal courts through major repair 
and alteration projects in Mobile, Alabama; Los Angeles, 
California; and Detroit, Michigan. In the Fiscal Year 2015 
budget, GSA is requesting more than $90 million for investments 
in support of the courts.
    In Detroit, Michigan, GSA is executing a multi-phase 
renovation of the historic Theodore Levin U.S. Courthouse to 
replace building systems that have reached the end of their 
useful lives. The Fiscal Year 2015 budget request also includes 
$20 million to improve physical security in buildings occupied 
by the Judiciary and the U.S. Department of Justice Marshals 
Service. This program, established by the courts, allows GSA to 
address serious security deficiencies in a timely and less 
costly manner than new courthouse construction.
    If consistency in funding can be restored, GSA will be 
better able to invest in its Federal inventory. Having access 
to all the receipts of the Federal Buildings Fund will allow 
GSA to better address the needs of the courts and the Federal 
agencies that pay rent to GSA.
    While GSA is pursuing strategic investments in partnership 
with the courts, GSA and the courts also are working together 
to improve the utilization, efficiency, and delivery of 
courthouses.
    The Judiciary recently implemented policy requiring judges 
to share courtrooms and has revised its estimates of future 
judgeships. These changes have allowed GSA to pursue smaller 
and less costly new courthouse construction projects. In some 
cases, these improvements have eliminated the need for a new 
courthouse altogether, allowing for modest renovations to 
existing space.
    Over the past several years, GSA worked with the courts to 
revise and reduce the requirements for almost every courthouse 
on the courts' 5-year plan, as well as enhance the level of 
oversight on all projects that move forward. While working with 
the Judiciary to reduce its space needs, GSA also strengthened 
controls to ensure these courthouse projects are constructed 
within budget. GSA will continue collaborating with the courts 
to reduce courthouse costs while maximizing their functionality 
and civic benefit.
    Thank you for the opportunity to speak with you today about 
our ongoing partnership with the courts. I am happy to answer 
any questions you may have.
    [The prepared statement of Mr. Gelber follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Coble. I thank you, lady and gentlemen. This is the 
first time in my memory that all witnesses have prevailed over 
the red light, so I commend you for that.
    We try to comply with the 5-minute rule as well, so I will 
start with Judge Johnson.
    You said, Judge Johnson, that your impression was that the 
GSA gave little consideration to the concerns raised by judges, 
with one exception. Is the lack of consideration typical or 
atypical of your experience and the experiences you heard about 
from other judges across the country?
    Judge Johnson. It has been my experience, Mr. Chairman, 
that on many of the projects that are done, whether it is new 
courthouse construction or a renovation project, like what 
Judge Conrad articulated, that oftentimes there is a lack of 
communication and these projects go forward notwithstanding 
concerns raised by the courts.
    Certainly at the national level, Mr. Gelber has a close 
working relationship with the individuals in the Administrative 
Office of the Courts that head the space and Facilities 
Committee nationally. There is, I think, a close working 
relationship. But just, for example, in the Tenth Circuit 
alone, I believe there are three different GSA regions. New 
Mexico is in the Fort Worth region, but Colorado, for example, 
I believe there is a regional headquarters in Denver. So 
oftentimes I would say the regional offices and people outside 
of the main office maybe don't get the memo about the need to 
communicate and do collaborative-type efforts.
    So there are times when you have issues where it can be 
disruptive in terms of these various types of projects where 
there is not that communication.
    Mr. Coble. Do you think, Judge, there is a difference in 
the level of respect GSA shows to court officials when they are 
dealing with the local level rather than working through the 
Administrative Office of the Courts?
    Judge Johnson. In some instances, yes. But again, it is 
hard to make a blanket rule because, for example, it was my 
experience when I was chairman of the Tenth Circuit Space and 
Facilities Committee, the District of Wyoming, for example, the 
Cheyenne Courthouse, there was a major renovation project 
there, and there was a very good working relationship. 
Actually, the judges and the court officials in the District of 
Wyoming were very complimentary of the GSA people there in 
Wyoming that handled that project. So I think it depends on 
what part of the country you are talking about.
    Mr. Coble. I got you.
    Judge Johnson. But I will say that, for example, when I 
came on board, I wondered why my district employed an 
architect. I come from the state court, and like Ms. Smith is 
working for the Western District of Virginia, at the time we 
were experiencing a lot of growth. We had a border courthouse 
in Las Cruces that was in the design phase, and we had to 
employ an architect to interface with GSA on numerous issues, 
whether it was the new courthouse or just simply doing some 
simple tenant alterations on an existing courthouse to 
accommodate the addition of new magistrate judges, for example.
    Mr. Coble. What say you to that, Judge Conrad, the 
difference in the level of the AOC as opposed to the local?
    Judge Conrad. I can't speak from the same perspective as 
Judge Johnson because I haven't served on the Space and 
Facilities Committee, and I don't know what interactions GSA 
has with our administrative arm. But on the local level, I 
think it depends on the project. Sometimes we get good 
response. Sometimes we get good collaboration. But in the case 
I have described, we did not, and I think it caused the final 
product to be inadequate and not responsive to our needs. So I 
would say that it varies on a case-by-case basis.
    Mr. Coble. I thank you.
    My time has about expired.
    I recognize the distinguished gentleman from New York, Mr. 
Nadler.
    Mr. Nadler. Thank you very much, Mr. Chairman.
    Mr. Gelber, our colleague from Puerto Rico, Representative 
Pierluisi, has some significant concerns about the GSA's 
management of renovations to the Degetau--I hope I pronounced 
it properly--Degetau Courthouse in his district. We will be 
submitting a question for the record on his behalf asking GSA 
to explain what specific actions it will take to ensure that 
the project is completed within the remaining budgetary and 
time constraints. Will you agree to respond in a timely and 
complete fashion?
    Mr. Gelber. Yes, sir.
    Mr. Nadler. Thank you. Can you get us a response within 45 
days?
    Mr. Gelber. Yes, sir.
    Mr. Nadler. Thank you.
    Ms. Smith, I understand you are currently assisting on a 
GSA renovation to the Federal courthouse in Greenbelt, 
Maryland. How is that project going?
    Ms. Smith. Thank you for your question. My work with the 
Greenbelt courthouse, I would say the most marked difference 
between the Greenbelt project and the Poff Building project is 
that GSA has a significant onsite presence. They have a GSA 
inspector who works alongside the night crew, so there is 
constant supervision, and their project manager is on site at 
least once a week.
    I think that the project in Greenbelt at this point is 
going very well. We are beginning design on Phases 2 through 5.
    Mr. Nadler. So you think the GSA is doing that well?
    Ms. Smith. I think there is----
    Mr. Nadler. Among other reasons because they have an on-
site manager.
    Ms. Smith. Exactly.
    Mr. Nadler. Have you talked to the GSA about perhaps having 
an on-site manager at the Poff Courthouse?
    Ms. Smith. When we lost our field office representative, I 
was told it would take a number of months to find a 
replacement. His replacement actually just came on about a 
month ago.
    Mr. Nadler. And his replacement is an on-site manager?
    Ms. Smith. Yes. He would have been the on-site construction 
contact for the courts. So I believe that GSA responded, but 
the response took so long that we were without that supervisor.
    Mr. Nadler. And he came on about a month ago.
    Ms. Smith. Yes.
    Mr. Nadler. So it may be, hopefully, that starting now or 
reasonably now and he or she gets acclimated to that position, 
that many of these problems will no longer be there on an 
ongoing basis?
    Ms. Smith. I hope so. We have many projects scheduled to 
begin soon, so that would be wonderful.
    Mr. Nadler. Okay. So we may have solved this problem, or 
may not have. It remains to be seen. Is that accurate?
    Ms. Smith. I would hope so. I would hope that he would take 
over a lot of the things that I did.
    Mr. Nadler. So we should take a look at this again in a few 
months, maybe.
    Mr. Gelber, the projects that we have been discussing today 
involve GSA renovations to existing buildings, not new 
construction. What funding has GSA received for such projects 
over the past few years, and what has been the funding trend 
over time?
    Mr. Gelber. For the last 4 years, GSA has only received 
funding for one Federal courthouse.
    Mr. Nadler. One new Federal courthouse.
    Mr. Gelber. One new Federal courthouse in Mobile, Alabama. 
For Fiscal Years 2011, 2012, and 2013, we received minimal 
funding for our entire capital budget. In Fiscal Year 2014, we 
received funding for the Mobile facility.
    Mr. Nadler. Now, you said you received funding for one new 
Federal courthouse.
    Mr. Gelber. In the last 4 years.
    Mr. Nadler. How many requests from the Judiciary do you 
have for new Federal courthouses?
    Mr. Gelber. My recollection of what is called the 5-year 
plan produced by the courts, there are at least 10 projects on 
that list.
    Mr. Nadler. So you have 10 projects on the 5-year list, and 
you have gotten funding for one.
    Mr. Gelber. That is correct.
    Mr. Nadler. What about renovation money?
    Mr. Gelber. We have received in the Fiscal Year 2014 budget 
some renovation money for facilities at courthouses.
    Mr. Nadler. Some renovation.
    Mr. Gelber. Again, in the previous three fiscal years, we 
had not received a substantial amount of money for our entire 
capital program.
    Mr. Nadler. Would you call the amount you got in this 
fiscal year a substantial amount of money?
    Mr. Gelber. Yes, yes. It is the first true infusion of 
capital that we have had available in the last 4 years.
    Mr. Nadler. And what percentage of need for that going 
forward do you think that what you got is?
    Mr. Gelber. We have a substantial backlog of capital 
investment projects across the country that need to be met. We 
are hoping to be able to receive what we refer to as the full 
proceeds from the Federal Building Fund, which is approximately 
about $2 billion.
    Mr. Nadler. When you say full proceeds, full compared to 
what?
    Mr. Gelber. In the Fiscal Year 2014 budget, I believe we 
received around $1.5 billion.
    Mr. Nadler. When you said full, you mean full compared to 
what you have requested, or full compared to what Congress 
appropriated? I mean, full compared to what?
    Mr. Gelber. Full compared to the proceeds or the receipts 
of the Federal Building Fund. It is a revolving fund account, 
and the intent is, in order for us to better serve the Federal 
agencies and the Judiciary that occupy these buildings, having 
full access to those receipts.
    Mr. Nadler. And you haven't had full access.
    Mr. Gelber. That is correct.
    Mr. Nadler. Because of the appropriations restrictions by 
Congress?
    Mr. Gelber. My understanding is it is based on the general 
constraints on the Federal budget.
    Mr. Nadler. Which would be appropriations constraints by 
Congress. Okay.
    Can you give us a sense of how the inability to maintain 
buildings--that is, deferred maintenance--impacts long-term 
costs? For example, does it impact ongoing costs of operating 
facilities or risk having conditions deteriorate even further 
so that later repairs are more costly?
    Mr. Gelber. The short answer is yes.
    Mr. Nadler. And are you in a position, have you been in a 
position where you have to defer necessary maintenance?
    Mr. Gelber. Yes.
    Mr. Nadler. And that is because of limitations on funding 
provided by Congress, limitations on your ability to use that 
revolving fund?
    Mr. Gelber. That is correct, sir.
    Mr. Nadler. Now, let me just ask you one other question 
about the revolving fund. How does money get into the fund?
    Mr. Gelber. I'm sorry?
    Mr. Nadler. How----
    Mr. Gelber. Yes. Money entering the fund are the rent 
receipts----
    Mr. Nadler. Okay. So rent receipts go into the fund, and it 
is a revolving fund. The restrictions that we place on your 
ability to use that fund, which has a dedicated revenue source, 
rent, does that have any impact aside from a negative--does 
that have any budgetary impact aside from enabling us to say 
the deficit is a little smaller? Does it have any real budget 
impact? I don't mean the impact of your having to do the 
deferred maintenance. That is obvious. But does it really save 
money to the Federal Government?
    Mr. Gelber. I believe--I am not an expert on that 
particular issue, but my understanding is that, yes, it does 
allow the Federal Government to say that they are deferring or 
reducing the deficit by a fraction----
    Mr. Nadler. To say it, I understand. Does it really save 
money in any real way? You don't know.
    Mr. Gelber. At the end of the day, these expenses and these 
costs will need to be addressed, and these buildings will need 
to be maintained properly. We are deferring----
    Mr. Nadler. Okay.
    Mr. Chairman, may I have one additional minute? I have one 
more question.
    Mr. Coble. Without objection.
    Mr. Nadler. Thank you.
    For Judges Conrad and Johnson, first of all, thank you for 
being with us today and sharing your concerns about the 
renovation projects in your buildings.
    A critical issue that some of us, I and some of my 
colleagues, have been urging the Committee to address is the 
impact that sequestration and budget cuts have had on the 
function of the courts. Can you just tell us briefly what has 
been the impact on your courts, the courts that you deal with, 
of sequestration and other budget cuts in recent years?
    Judge Conrad. Thank you, Mr. Congressman. As probably most 
of the Members here know, I joined a number of other chief 
judges during the days of sequestration and wrote Congress 
expressing our concern as to the impediments, the effects 
sequestration had on the administration of justice in our 
respective districts, and I stand by all the things that were 
said in that letter.
    Mr. Nadler. Is that just sequestration or other budget 
cuts, too?
    Judge Conrad. Sequestration and budget cuts, but I don't 
want to be heard to compare apples and oranges.
    Mr. Nadler. Okay.
    Judge Conrad. Because in those situations, we understood 
months in advance what was going to be required by way of cuts.
    Mr. Nadler. But with sequestration, you didn't have that 
advance warning.
    Judge Conrad. We did. We knew what we were going to have to 
do to cut our budgets to conform to the money, the 
appropriations that were going to be made available to our 
districts. So we had a chance to prepare. Furthermore----
    Mr. Nadler. So I don't understand what the apples and the 
oranges are that we are not supposed to compare.
    Judge Conrad. I am going to explain. Furthermore, with 
sequestration, Congress was kind to invite representatives from 
the Third Branch to be here. Judge Bates, Judge Hogan, Judge 
Gibbons have all been called to testify, and they were very 
knowledgeable and expressed the position of the court very 
well, and I think Congress heard what they were saying. With my 
project, though, I was never given the opportunity to be 
heard----
    Mr. Nadler. I see.
    Judge Conrad [continuing]. And I was never given the 
opportunity to have advance notice so I could plan properly for 
what was going to happen.
    Mr. Nadler. Thank you.
    Judge Johnson?
    Judge Johnson. Congressman Nadler, these are some rough 
numbers, but in Fiscal Year 2011 the District of New Mexico's 
budget was $9.7 million. For Fiscal Year 2014, the current 
fiscal year, we are at approximately $8.9 million. So it is an 
8 percent reduction. In terms of staffing the 2011 court 
operations, there were 112 people on board; 2014, 92 on board. 
So it is approximately a 14 percent reduction in personnel. 
That was accomplished through either retirements, early outs, 
or buyouts. And for that same time period, we have had 
approximately a 20 percent increase in caseload. That is 
virtually all in the criminal area because we are a Southwest 
border district.
    So in terms of the Clerk's Office, we have handled that, 
and again we have handled it through increases in automation. 
Probably the biggest area of concern would be in the United 
States Probation Office. In addition to being a Southwest 
border district, there are 30 different Indian tribes and 
pueblos within the states, ranging from smaller pueblos to I 
think about a third of the Navajo Nation is in New Mexico, two-
thirds in Arizona. For probation officers to supervise, there 
are a lot of logistical issues there. So the impact on the 
United States Probation Office was the primary area of concern.
    Mr. Nadler. Thank you very much.
    My time has expired. I yield back.
    Mr. Coble. I thank the gentleman.
    Mr. Gelber, the 10 projects to which you referred, is that 
new construction or renovation, or both?
    Mr. Gelber. Those are strictly for new construction, sir.
    Mr. Coble. All new construction?
    Mr. Gelber. That is right.
    Mr. Coble. Thank you, sir.
    The Chair recognizes the distinguished gentleman from 
Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you very much, Mr. Chairman.
    Mr. Chairman, following on to the letter I think introduced 
by the gentleman from Michigan or the gentleman from New York 
dated June 16--actually, it was the letter of June 18, I 
believe, that was made a part of the record--I would like to 
ask unanimous consent to make a part of the record as well a 
letter from Judge Carol Bagley Amon, the Chief Judge of the 
Eastern District of New York, to all of the chief judges of the 
district courts throughout the country, and a letter from Judge 
John D. Bates, who is the Director of the Administrative Office 
of the United States Courts, dated June 17, pointing out the 
need for the gathering of information and pointing out, for 
example, in Judge Bates' letter, ``In addition and in order to 
prepare a comprehensive and geographically complete report of 
GSA deficiencies from around the country for this initiative, 
Judge Amon sent to you by letter yesterday to describe specific 
examples. These examples will be provided to GSA.'' So I just 
want to make it clear that this is not something that is unique 
to the situation in New Mexico or the situation in Virginia, 
and I would ask that those two letters be made a part of the 
record, along with the one already introduced.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Goodlatte. Mr. Gelber, the point has been made that 
funds are tight. This year, for example, we are about 8 months 
into the current fiscal year. So far, the Federal Government 
has spent more than $600 billion, more than it has taken in. 
Would you agree that under circumstances like that, funds need 
to be used wisely by government agencies to stretch dollars as 
far as they can be stretched?
    Mr. Gelber. Yes, sir.
    Mr. Goodlatte. So would you say that spending $3.4 million 
to patch a leak in a garage at the Federal building in 
Albuquerque, New Mexico was a wise use of Federal funds when a 
number of suggestions were put forward that are listed in Judge 
Johnson's testimony about how the problem could have been 
solved without a complete re-landscaping of the exterior of the 
courthouse?
    Mr. Gelber. We felt the key issue regarding that project 
was the preservation of the roof. The landscaping would affect 
the parking deck that is below that landscaping. In order to 
protect that structure, the GSA believed we should proceed with 
a rethinking of how we approached the landscaping at that 
facility. But most importantly, stabilizing the roof and 
sealing the roof so that no further water leaks would occur.
    Mr. Goodlatte. One of the suggestions was that you simply 
go to desert landscaping. Was that not considered as a good 
alternative?
    Mr. Gelber. To the best of my understanding, that is what 
we did at that facility.
    Mr. Goodlatte. And it cost $3.4 million to----
    Mr. Gelber. The majority of the work associated with that 
project was associated with, in effect, rebuilding and 
resealing the roof for the parking deck. A proportion of that 
project was also spent on the new landscaping for that 
facility, replacing the grass that was there previously with 
what you and I would refer to as desert landscaping.
    Mr. Goodlatte. Now, with regard to the Poff Federal 
Building in Roanoke, you are aware now that a total of $82 
million has been expended or requested by the GSA on this 
project for a building that cost $14 million to construct in 
the mid-1970's, and the purpose of that was to replace the 
windows, the roof, the HVAC system, and the bathrooms in that 
building. The ostensible purpose was to green the building, to 
create a more energy efficient situation. It is my 
understanding that the life expectancy of the materials put 
into the building is somewhere between 30 and 40 years, and yet 
the payback on the energy savings would take, by the 
calculation of some, 218 years to recoup the so-called energy 
savings in that building.
    Would you say that the going-on $82 million--and I would 
suggest there are going to be more expenditures beyond that--
was a good use of the taxpayer dollars in that building?
    Mr. Gelber. GSA has an obligation to maintain the various 
assets that we have in our inventory.
    Mr. Goodlatte. But don't you have an obligation to consider 
all of the alternatives in terms of providing facilities when 
you do that? And don't you have an obligation to consider what 
the impact is on your tenants when you do that? I mean, the 
Veterans Administration, which is in a crisis over the 
processing of claims and providing services and benefits and 
was required to relocate out of the building for 3 years at 
four separate locations while the files were remaining in the 
building and had to be shuttled back and forth, you don't think 
that had a serious impact on veterans? The court found itself 
having to work around this with serious security issues with 
regard to disruptions, a danger to the safety of the employees. 
Don't you think that the GSA could have done a better job of 
consulting with the tenants and considering how this would best 
work to find better facilities for them and in a more cost-
efficient manner than spending $82 million, nearly seven times 
or six times what was spent on the original construction of the 
building?
    Mr. Gelber. Based on the testimony of the Chief Judge and 
Ms. Smith, I fully agree that GSA has space to improve in how 
it interacted and communicated with the tenants of that 
building.
    Mr. Goodlatte. Well, let me ask you this. I agree with you 
on that. Why hasn't anyone at GSA been held accountable with 
regard to the mismanagement of this project? Has anybody been 
fired or disciplined as a result of the decision-making process 
that was undertaken and the results that are now painfully 
evident?
    Mr. Gelber. I am not aware of any personnel actions, and I 
would also not agree with the notion that there was any 
mismanagement that would require such personnel actions be 
taken.
    Mr. Goodlatte. Mr. Chairman, if I might have one additional 
minute, I would like to ask another question.
    Mr. Coble. Without objection.
    Mr. Goodlatte. Why hasn't anyone at GSA been held 
accountable for violating Federal law in publishing the 
guaranteed maximum price that the government would pay for the 
renovation of the Poff building? In other words, it is required 
under the law that you not reveal the maximum amount. Not the 
amount you would like to pay but the maximum amount you would 
pay was disclosed to the people who bid on the contract. And, 
lo and behold, every single one of them, what did they bid? The 
maximum amount.
    Was anybody held accountable for what had to be millions of 
dollars in loss to the taxpayers, millions of dollars that 
could have been diverted to address some of the other needs 
that we have talked about here today in maintaining facilities 
around the country? Was anybody held accountable for that 
violation of the law?
    Mr. Gelber. The GSA Inspector General reviewed that part of 
the process, and no recommendation for any such prosecution or 
action was made.
    Mr. Goodlatte. The Inspector General is charged with 
pointing out these errors, but he is not charged with managing 
the operation of the GSA. The GSA is perfectly capable of 
making decisions themselves with regard to how they hold people 
accountable for these failures to help ensure that these things 
don't occur in the future. Has anybody been disciplined for any 
of this?
    Mr. Gelber. I am not aware of any disciplinary actions 
associated with that.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Coble. The Chair recognizes the distinguished gentleman 
from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    Following on the questions of Chairman Goodlatte, are you, 
Mr. Gelber, aware that there was a Transportation Committee 
hearing on the issue that keeps coming up and that the 
Inspector General issued a report on it, and that came out 
during a hearing on April 14, 2011 in the Committee of 
jurisdiction, the Transportation and Infrastructure Committee?
    Mr. Gelber. I am aware of that, sir.
    Mr. Conyers. And can you comment on what happened during 
that? Because this is not the general subject matter that we 
engage in, of oversighting how these courthouses are maintained 
or create new ones or restoration, et cetera. We are working 
off of a hearing of April 14, 2011 from the Transportation 
Committee in which an Inspector General's report was issued, 
and unless we had been at that hearing, it is hard to go back 
and determine what has been accomplished since then. Would you 
agree?
    Mr. Gelber. I would agree with that statement, sir.
    Mr. Conyers. How do we cover this? Because Mr. Chief Judge 
and our other Federal Judicial member and witness, the most 
important thing that can come out of this hearing is how do we 
increase and improve the cooperation between GSA and the 
Judiciary, and what I am trying to get from any of you that 
will help me is how can we improve these relations.
    Let me start off with the GSA representative.
    Mr. Gelber. GSA is actively engaged in regular discussions 
with representatives from the court at the senior level 
regarding our space issues with the Space and Facilities 
Committee. We meet on a regular basis. Just as recently as last 
week we attended the Space and Facilities Committee, where we 
discussed the court's interaction with GSA. GSA also has 
regular meetings with certain circuit courts around the country 
to better understand their needs and how we can better serve 
them, as well as, as often as possible from GSA's perspective, 
we engage with district court judges on specific issues that 
may be of concern to those particular judges.
    Clearly, based on the testimony I heard today, we have room 
for improvement on particular projects, and GSA will take that 
and work with the Administrative Office of the Courts, the 
Space and Facilities Committee, the various circuits around the 
country, and the district courts to better engage and ensure 
that the courts are active participants in GSA projects and GSA 
facilities around the country.
    In many cases, I believe my colleagues around the country 
do a good job in this matter; clearly not in all cases. We have 
challenges that we need to fix, and I think one of the key 
challenges that the court has presented to GSA is we need to 
have a more consistent level of excellent engagement with the 
court, and that is our commitment to both the court and to this 
Committee.
    Mr. Conyers. I am glad to hear that. I didn't know about 
this tension either until this hearing, and I apologize for you 
not getting notice, giving you more than a week to come before 
this Committee.
    Could I ask the same of Ms. Smith, please?
    Ms. Smith. Yes, thank you. I would agree that greater 
involvement from people on the court side very early in the 
process of planning these projects is going to benefit 
everyone--the court, certainly GSA, and the ease of pulling off 
a project, and the taxpayer of spending less money.
    Not only do the courts understand their own function, but 
we also understand our facilities very well. For example, I 
believe that GSA has requested funding for partial demolition 
and reconstruction of our parking garage in Roanoke. When I 
talked to the project executive about this in detail, he was 
unaware that the parking garage actually houses the U.S. 
Marshals Service sally port for bringing prisoners into the 
building. It will also affect our judges' entry. So at this 
point, GSA has requested funding for design and construction of 
a project that these two major parts are going to have to have 
some temporary construction, and I think that is not fully 
understood.
    So I think we are heading into a project again where I have 
yet to be involved in any of the planning. So I would say right 
now, the next meeting, I would really like to be at the meeting 
for the parking garage.
    Mr. Conyers. Well, I hope so, because we are doing major 
remodernization at the Levin Courthouse Building in Detroit, 
and so far--and I see the judges pretty regularly--no one has 
brought any complaints or criticisms to my attention. But we 
have taken two courthouses out of hundreds, and that doesn't 
give us a clear picture of what is going on.
    Chief Judge Conrad, maybe, do you have any impressions on 
this? I know you don't work in this area as a chief judge, but 
is it your view that we can improve our relationships between 
GSA and the Judiciary? And if there are any specific 
recommendations you would want us to know about or consider, I 
would appreciate it from you, sir.
    Judge Conrad. There certainly is.
    Ms. Smith, this is the first I have heard that the judges' 
entry into the building is going to be affected by this parking 
garage demolition. [Laughter.]
    Judge Conrad. That is the reason that Ms. Smith and I are 
here today. And I agree, Congressman, with the theme of your 
question. I think that looking forward, we have to be able to 
determine some better ways to effect communication between the 
GSA, which has a very difficult job to do, and the courts, 
which have our own difficulties in performing our work.
    So I would agree, using this Poff stimulus project as an 
example, if there could have been more planning up front, if we 
could have met with the design official months before the 
project was let for bid, I think that we could have addressed 
some of the needs that now have been left unaddressed at the 
conclusion of the project. So I underline everything that you 
say. I agree with it 100 percent.
    Mr. Conyers. Well, thank you. Maybe, even though this may 
not be in our jurisdiction, we can turn this into a positive 
coming together, because this discussion may not have taken 
place any other way.
    Judge Johnson, what are your feelings?
    Judge Johnson. Congressman Conyers, I will draw some on my 
experience serving on the national committee, although I am no 
longer on that committee. But I know your chief judge, Judge 
Rosen.
    Mr. Conyers. Yes.
    Judge Johnson. And I know the issues. The courthouse in 
Detroit is a magnificent historic structure. For example, the 
roof has been leaking for years. There have been serious 
problems at that courthouse, as well as I am also aware of 
another one. I don't think it is in Chairman Coble's district, 
but it is the Charlotte Courthouse, which has the same kind of 
issues that Detroit has been facing, and I am glad to hear that 
resources are being put into renovating what is no doubt a 
magnificent building.
    But when you look at, for example, what has gone into the 
Poff Building, $82 million by the time everything is done and 
said, part of that $82 million would go a long way to putting a 
roof on the Detroit Courthouse, or the Charlotte Courthouse.
    Mr. Conyers. It sure would.
    Judge Johnson. So those are some of the issues that I 
experienced. The Judiciary, we are captive tenants in these 
courthouses, and the rent implications, even though the 
landscape project in Albuquerque, the $3.4 million pales in 
comparison to the Poff. But one of the concerns we had is we 
didn't request this, but are we going to end up paying more for 
rent for all this? It did reduce the water. The water is not 
going into the garage. I think it is conserving water. But how 
is this going to affect our rent bill?
    It all comes down to GSA holds all the cards. We are 
captive tenants. The rent has to get paid. It is automatically, 
I guess--we don't have any--Judge Rosen didn't have a common 
law remedy of a tenant where if the roof is not being fixed, he 
just doesn't pay rent. We don't have that option.
    Mr. Conyers. Of course not.
    Judge Johnson. So communication is an issue. But if we had 
a little more, I guess, control, or the playing field was 
leveled a little bit to where we could get involved a little 
more, because we obviously have a vested interest since we are 
the tenants in these courthouses.
    Mr. Conyers. Well, we will be following this because the 
courts have sustained a 20 percent increase in caseload, at the 
same time sustaining an 8 percent reduction in funding.
    Judge Johnson. That was for my district, Congressman.
    Mr. Conyers. Yes.
    Judge Johnson. And I am not sure what the numbers are for 
other districts.
    Mr. Conyers. Oh, I see. Could it be similar, or do you have 
any idea, Chief Judge Conrad?
    Judge Conrad. Not as dramatic as Judge Johnson.
    Mr. Conyers. I see. Well, I want you to know that we will 
be following this as we move along into this area. I am 
certainly glad that all of you are here today, and especially 
Mr. Gelber, who has been taking all of this in and writing 
notes furiously. I want to see a coming together and a 
reduction of the differences between an important Federal 
agency and the Federal Judiciary itself. To me, that is my 
primary concern.
    So I thank all of you as witnesses for being here, and I 
yield back, Mr. Chairman.
    Mr. Coble. I thank the gentleman from Michigan.
    The distinguished gentleman from Texas is recognized.
    I stand corrected. The distinguished gentleman from 
Pennsylvania is recognized next.
    Mr. Marino. Are you in a hurry? Go ahead.
    Mr. Poe. Mr. Chairman, am I recognized?
    Mr. Coble. Pardon?
    Mr. Poe. Am I recognized?
    Mr. Coble. Oh, you are indeed recognized.
    Mr. Poe. Thank you, thank you.
    Thank all you all for being here. I was a former judge in 
Texas state court, felony court, tried those outlaws down in 
Texas, which we apparently have a lot of, for 22 years, been 
through the courthouse building business. We actually have a 
courthouse that was built in the 1800's that now has been 
refurbished and is useful and looks like what I think a 
courthouse traditionally used to look like. So I thank the 
judges for being here.
    Let me ask the GSA expert, do you see the absolute 
necessity of having judges involved in the building of 
courthouses in the country? Do you see how important that is?
    Mr. Gelber. I do. If the court wishes to participate in 
that process, yes, sir, they should.
    Mr. Poe. There are factors that only judges and people who 
work in the captive environment understand have to be done. No 
offense, but government bureaucrats just don't get that 
information, whether it is moving juries around the courthouse, 
keeping defendants from juries, from the public, all of those 
things, keeping lawyers where they can talk to their clients, 
lawyers talk to their clients who are in custody, meeting with 
witnesses. All of those things judges understand because they 
work in the environment where all of that takes place. No 
offense, but people in the government, they don't do that. They 
work other places.
    I just want to stress on you the importance of that 
because, obviously, it is not working out too well. From the 
public's point of view, they see that these judges are getting 
these big courthouses refurbished, and it is costing the 
taxpayer a lot of money, and they don't blame you. They blame 
the judges for that, and the judges really aren't the ones to 
blame for the expense of these new courthouses.
    As the gentleman from Michigan has mentioned, judges are 
working harder, more cases, more people come and go, whether it 
is a trial court or whether it is an appellate court, from all 
of these government buildings.
    How many courthouses are there in the United States 
controlled by the GSA?
    Mr. Gelber. I would say, depending on how one defines it, 
approximately 200.
    Mr. Poe. Are they all occupied?
    Mr. Gelber. Those are all Federally owned, occupied 
courthouses. Yes, sir.
    Mr. Poe. Are there any courthouse buildings, annexes, that 
are unoccupied that are owned by the GSA?
    Mr. Gelber. Yes, sir, there are some of those facilities as 
well.
    Mr. Poe. What are you doing with them?
    Mr. Gelber. We are in the process of seeking a better use 
for them, whether in partnership with the private sector or 
with other Federal agencies.
    Mr. Poe. Do you ever sell buildings?
    Mr. Gelber. We do, sir.
    Mr. Poe. How many buildings in America does the GSA have 
control over or own?
    Mr. Gelber. I believe that number is around 1,900, sir.
    Mr. Poe. Almost 2,000 total buildings in the country? That 
is all?
    Mr. Gelber. We control--sorry, I am just checking a note 
here. I apologize. We have approximately 1,500 owned assets and 
9,000 leased assets around the country.
    Mr. Poe. So you own some buildings and you lease other 
buildings from the private sector I suspect.
    Mr. Gelber. That is correct, sir.
    Mr. Poe. Is there a bid process involved in whether you 
build a building or you lease a building?
    Mr. Gelber. Yes, there is a financial review and analysis 
done to seek the best possible solution to the space challenge 
we have.
    Mr. Poe. Of those 1,500 buildings, how many of them are 
unoccupied?
    Mr. Gelber. All those 1,500 buildings are occupied.
    Mr. Poe. So GSA has no buildings in the country that are 
unoccupied?
    Mr. Gelber. I am sorry, sir. We do have unoccupied 
buildings. They are not part of that 1,500.
    Mr. Poe. Okay. How many buildings are unoccupied that GSA 
owns? That is my question.
    Mr. Gelber. I believe that number is around 20, sir, but I 
would like the opportunity to correct that for the record.
    Mr. Poe. Okay, whatever the number is. Do you ever sell 
buildings?
    Mr. Gelber. We do, sir.
    Mr. Poe. All right. And you go through a competitive 
process to do that?
    Mr. Gelber. Yes, sir. One of the features--we, in effect, 
have an online auction for the facility.
    Mr. Poe. Why is the cost so much more when you try to 
refurbish, the examples that are being used here, the Federal 
courthouses? How come this cost is--it is really kind of out of 
control. Can you explain the general reason why the cost is so 
much?
    Mr. Gelber. Sir, unfortunately, the expenses associated 
with these buildings are there is a substantial amount of work 
that needs to occur, and that work is expensive.
    Mr. Poe. That is not the answer. I am not looking for why 
you are saying it is expensive. Why is it expensive? I know 
what goes into a courthouse. I have been in one for 22 years. 
But why does GSA spend so much money on a project that ought to 
cost a whole lot less? That is really my question.
    Mr. Gelber. We go through a competitive bid process, sir, 
and the responses we get to those bids represents the cost of 
the project.
    Mr. Poe. But based on what we have heard here today, after 
the results, after the building is built or whatever is fixed, 
the parking lot is fixed without the Marshals' input, it is 
more expensive than it ought to be.
    Mr. Gelber. Sir, the project that was referenced hasn't 
started yet. Our intent is to work with the Marshals Service 
and the court to ensure that they understand and are part of 
the project planning process.
    Mr. Poe. My question really is do you agree or not that 
when the GSA is building courthouses or refurbishing them, or 
remodeling those courthouses, they seem to be out of line with 
what it ought to cost if the private sector handled it?
    Mr. Gelber. I would disagree with that, sir. We are going 
through a competitive bid process and the private sector is, in 
effect, bidding on the work that accomplishes the changes in 
the courthouses that we are requesting.
    Mr. Poe. And the buildings that you are refurbishing in the 
future or building courthouses, are you telling me that you do 
and will continue to get the input from the occupants of the 
buildings, like the judges?
    Mr. Gelber. Yes, sir.
    Mr. Poe. All right. I am going to ask the judges a 
question. One more question, please, Mr. Chairman.
    Do you believe the system works well enough where you give 
input at the right time?
    Judge Conrad. Congressman, it didn't for us on the Poff 
stimulus project. It did not work for us in the Poff stimulus 
work. We did not have the opportunity to be heard. We did not 
have the opportunity to suggest minor design improvements that 
could be made at the same time that would help us do a better 
job. Instead, we have a building that is full of invisible 
improvements. The employees don't know what has been done. They 
don't find it easier to do their jobs.
    So for us, the answer is no, it did not seemingly work the 
way it should have worked.
    Mr. Poe. And so do you see that GSA now has to come back in 
and fix those problems?
    Judge Conrad. Well, they need to be fixed. Whether they are 
going to be fixed or not is another question.
    Mr. Poe. All right. So you are saying that they need to be 
fixed.
    Judge Conrad. Ms. Smith can better answer this question 
than I, but now if they are going to be fixed, it is going to 
be at our expense, not GSA.
    Mr. Poe. I will ask the other judge.
    Judge Johnson. Do you want me to answer?
    Mr. Poe. Yes, sir.
    Judge Johnson. Oh, yes. I would agree with what Judge 
Conrad said. You know, on projects, there is a 7 percent 
management fee if it is a small project that my district will 
get charged for GSA's management and expertise. But typically 
we also have to have representatives from the Clerk's Office, 
someone similar--it might not be someone at Ms. Smith's level 
of expertise, but somebody has to oversee it on our end to make 
sure the contractor is doing what they are supposed to even 
though we are paying the 7 percent.
    If you have a minute, I will give you a real simple example 
of a recent situation where there was a judge, one of my 
colleagues. Because of the budget issues, there is a dishwasher 
in her workroom. She decided to go out and she found one on 
sale at Lowe's or Home Depot, someplace like that, paid $400. 
She was going to furnish it. But because GSA has to install it, 
instead of being able to pay a $50 or $100 installation fee, we 
were going to be charged--it was close to $1,000 to install the 
dishwasher, and that is because we have to go through GSA.
    Those are the types of--whether it is a small project or a 
big project, we get hit with those.
    We had to replace the judge elevator, the judge and staff 
elevator in the Albuquerque courthouse. I assumed since GSA 
owned the building, they pay for the elevator. I learned we had 
to pay for the elevator. They will pay for the public 
elevators, but even though all courthouses now have separate 
inmate elevators, public elevators and staff elevators, GSA 
considers that a special need for the Judiciary and we had to 
pay for it even though, again, we were down 8 percent. The 
Circuit helped us pay for that.
    But again, if we are paying rent on these buildings, to me 
that is something that GSA should be paying for, not us. It 
does impact, particularly if you are looking at budget cuts and 
potentially furloughing employees. These types of expenses have 
a huge impact on not only my district but other courts.
    Mr. Poe. There ought to be a law.
    Thank you very much. I yield back.
    Mr. Marino [presiding]. Thank you, Judge.
    Congresswoman Lee?
    Ms. Jackson Lee. Thank you very much. I want to thank both 
the Chairman and Ranking Member of our Subcommittee on Courts, 
but I am also going to thank the Chairman of the full 
Committee, Mr. Goodlatte, and the Ranking Member, Mr. Conyers, 
for cooperating on this hearing, which might be considered a 
rather unique and interesting hearing.
    First of all, let me say that I was one that was gratified 
and voted for the ARRA dollars, and I do not step away from 
that. Some of the dollars were used, as I understand, in some 
of these projects. But I believe the structure that Judge 
Johnson and Chief Judge Conrad, and Ms. Smith, I believe--I was 
delayed and so I did not hear all of your testimony--is a 
crucial one, and I am grateful for you bringing this to our 
attention.
    Let me cite you, Judge Johnson, because I am in a Federal 
building that is run by GSA that has a number of law 
enforcement entities in it, so I consider it a nexus to the 
Judiciary, and it is accurate. I do not have the option not to 
pay rent, with all of the dissatisfaction.
    Now, I am as much a person that believes in the 
conservation. I am in my office with a full working staff and 
constituency meeting, and the lights go out without my 
permission because they say they have it on a timer. I am in a 
constituency business. My constituents may come at 6 or 7 
o'clock, and I am there with 20 or 30 people in the office, and 
the lights go out because GSA, unknowingly to the payer of the 
rent, is not kind enough to give a waiver or a notice.
    Fortunately, a late-night building operator came up and 
said ``It's not my fault, this is what they have done.''
    So I think this hearing is worthy, and I want to just pose 
this question as I raise some questions to Mr. Gelber, who I do 
want to make it very clear that I appreciate the General 
Services Administration and the staff. I always want to 
separate my appreciation for anybody in public service, but I 
think we can do better.
    This letter has just come in June 18th, 2014 from the 
Committee on Space and Facilities. Judge Johnson, I want to 
make sure that this is enough, that there has now been 
developed a partnership with GSA aimed at addressing many of 
our longstanding problems, and that is intended to improve the 
delivery of all services that the Federal Judiciary receives 
from GSA.
    I really am shocked that you are charged for the elevator 
that is part of the building that is in--you are in the 
building. They know you are in the building. You are a 
Judiciary that has special needs. The Federal Courthouse in my 
district, it is across the street from a Federal detention 
center. In order to provide protection, there are a number of--
I won't go into it--discreet entrances that we must have, 
bringing the detention cartel persons that are in the detention 
center over, some of which are there, over to this building. So 
we would need special dispensation.
    So it is obvious that you need special dispensation. I am 
shocked that you are paying for repair of elevators in a 
building that you are paying rent for owned by GSA.
    Judge Johnson. We were shocked.
    Ms. Jackson Lee. Let me just ask you, does this letter help 
that we just received? I assume that you have this letter. This 
is a letter coming from the Committee on Space and Facilities 
that says they worked out a deal that would work with GSA for 
you to have more input. Is that what you are saying that you 
need, and is this a good start?
    Judge Johnson. Congresswoman Lee, I had earlier mentioned I 
am aware of the letter, and Mr. Gelber I know has a very close 
working relationship with the members of the Administrative 
Office of the Court who handle space and facilities on a 
national basis. But what I had mentioned earlier is that there 
are a number of GSA regions that have regional commissioners 
who are--I think I am correct in this--who are presidential 
appointees, and at least it has been my experience, and I say 
this from serving on the national committee, that at the 
national level for GSA there is a sincere effort to try to work 
with the Judiciary. They understand our problems. They 
understand the issues. If the rent keeps going up, it is a 
choice of either having our people on the payroll or paying 
rent. That is why we are trying to----
    Ms. Jackson Lee. But----
    Judge Johnson. But at the lower levels, the regional 
levels, it is not always the same commitment.
    Ms. Jackson Lee. I see. Well, this has been at the level of 
the Judicial Conference. What would be helpful for you being in 
the local level and dealing with the GSA leadership?
    Judge Johnson. More local accountability. Again, I gave the 
example of little projects that shouldn't cost--I mean, if you 
go and if you were going to do something in your office but you 
have to go through GSA, if you are like the Judiciary, you are 
paying for any type of tenant alteration. You are paying, for 
example, a percentage of management fee. So if we had more, I 
guess, negotiating--if GSA didn't hold all the cards and we had 
the ability to get these projects done on more of a competitive 
bid basis without paying the fees, it would help us out a lot.
    Ms. Jackson Lee. I ask for your indulgence here for a 
moment, please, if you would just yield me just a moment to 
finish. I appreciate it, and I thank you for your courtesies to 
a fellow Texan, for my colleague who is here.
    I have served as a municipal court judge, so I know 
buildings. I think these are two important points, Judge, and I 
thank you.
    I want to go to Mr. Gelber and indicate some of this you 
may have to get back to me directly. Let me thank you for your 
service and say that your regional office has certainly been 
courteous. But I have two major issues that I would like to 
address.
    Our courthouse, 515 Rusk, has to be as old as Texas. 
Unfortunately, it came through an era of unattractiveness. You 
are able to propose places of rehab, not new construction. I 
would ask you to meet with me. I would ask you to assess why 
you have not come to recommend this building for a massive 
facelift. It is a place of service of our Judiciary, and it is 
untoward. That is number one.
    Then let me go to a project that is existing right now that 
I have had meetings upon meetings. As I indicated to Judge 
Johnson, this is not a partisan issue on this Committee. This 
is an issue of trying to remedy an unfortunate set of 
circumstances. You hired a contractor that is tone deaf, and 
there is no accounting for--we had agreements on reaching out, 
getting diversity among the employee base, the construction 
base, to ensure that those in the neighborhoods would have the 
opportunity if it was to use a broom.
    So I want numbers of diversity on that project. We had had 
a commitment on the diversity of contractors, subcontractors. I 
believe it has been totally violated. The main contractor was 
particularly insensitive and rude to establish minority 
contractors who they wanted to give a broom, not do the work 
but they wanted to just get a broom.
    So this is the Mickey Leland Federal Building in Houston on 
Smith Street that has basically run off every congressional 
person except myself. So I want a full briefing. I am making a 
complaint about the contractor, about the lack of 
responsibility and the horrific constraints that you put in the 
building for those of us who pay compensation.
    So I would ask and I would just have you say on the record 
that you will be in touch with me on the 515 Rusk and the 
Mickey Leland Federal Building.
    Mr. Gelber. Yes, Congresswoman.
    Ms. Jackson Lee. And you will be in my office. You are 
based here in Washington?
    Mr. Gelber. I am based in Washington, D.C.
    Ms. Jackson Lee. All right, sir. So we will be together 
with paperwork and documentation to ensure that this situation 
is remedied.
    Let me thank the Chairman for his indulgence. I yield back.
    Mr. Marino. Mr. Holding?
    Mr. Holding. Thank you, Mr. Chairman.
    Having been a tenant of GSA for about 10 years, I am not 
particularly surprised by the problems illuminated in the 
hearing today. Out of 93 United States Attorneys and all their 
various offices, there is a good mix of GSA tenants, and there 
are tenants of private entities as well. I think it is fair to 
say that GSA tenants unhappy, private tenants happy.
    But we are here to talk about the Federal Judiciary, and 
the Federal Judiciary has responded to the difficult budget 
requirements imposed on them by sequestration by making 
sacrifices across the board to reduce spending. Unfortunately, 
for far too long, judges in North Carolina and around the 
country have related to me instances where GSA has failed to be 
good stewards of scarce taxpayer resources.
    In the run-up to this hearing I have heard from a growing 
number of Federal judges who share with me a number of specific 
instances where GSA failed to live up to the standard which we 
place on all Federal employees, ourselves included, 
particularly in these times of austerity.
    The United States Bankruptcy Court for the Eastern District 
of North Carolina, Judge Humrickhouse, has faced an ongoing 
battle with the GSA to have her chambers renovated. Despite the 
GSA originally estimating that the project would take 6 months 
to complete, today, 4 years and 8 months, a myriad of problems 
and a fired subcontractor later, the project has yet to be 
completed.
    More troubling than the contractor's failures, according to 
the judges on the ground, is the GSA's lack of oversight which 
led to over-billing.
    In the Western District of Louisiana's Bankruptcy Court, 
judges and clerks relay that, in their experience, GSA has 
proved to be both inefficient and ineffective in meeting the 
needs of the court. Judges there tell me that the GSA 
management structure promotes slow decisions, creates delays, 
and causes large-scale cost overruns. This experience caused 
the cancellation of their most recent space renovation project, 
the remodeling of one bathroom for one of their judges. The 
judge there states that there were false starts on the project 
due to lack of communication between the different branches of 
the GSA, innumerable weekly telephone conferences, and steadily 
climbing cost projections.
    After court funds had been obligated for the second time, 
GSA returned with one additional $4,000 cost requirement. At 
this point, the judge chose to abandon the project altogether. 
While this was not a matter of large consequence, it is the 
smallness of the project that makes GSA's inability to get it 
done noteworthy.
    So failure on large projects, failure on small projects.
    Judges in Texas advise me that GSA PBS has been permitted 
through its pricing policies to unreasonably shift some of the 
cost of building ownership to tenant agencies, as we were just 
discussing. They tell me that, for example, we have been 
routinely required over the past decade to pay for cyclical 
maintenance and repairs and court space from our salaries and 
expenses account even though we already pay market value to 
rent the space from GSA and buildings that the Federal 
Government has owned for decades.
    Now, certainly there are a lot of fine folks working at 
GSA, and I want to tell you that during my tenancy at GSA I met 
a number of these people and continue to be friends with them, 
and I appreciate their service. But I have heard far too many 
accounts from judges that I have worked with in the past and 
their colleagues around the country that this cannot be 
ignored.
    There has been some mention that we are only hearing about 
two projects. Well, I beg to differ and say we are hearing 
about a lot of projects and instances in Federal courthouses 
around the country.
    So, Mr. Gelber, what does GSA have to say for itself? We 
have heard about what is going on in Virginia and North 
Carolina, Texas, Louisiana, and I plan to submit for the record 
additional information.
    So you have 51 seconds. You are welcome to respond, and any 
further response you are welcome to submit in writing.
    Mr. Gelber. Thank you, sir. GSA is committed to working 
with not only the Judiciary but all other Federal agencies who 
occupy our facilities to ensure they have the best space 
possible to meet their needs, and that is our commitment to the 
court here today, to the Congress, as well as all the other 
executive branch agencies we work with.
    Mr. Goodlatte. Would the gentleman from North Carolina 
yield on that point? I thank the gentleman for yielding, and I 
would like to join the--not with regard to her specific 
courthouses, but you heard Judge Conrad express and allude to 
security concerns that have gone unaddressed with regard to the 
courthouse in Roanoke, and I would like to ask that you and 
representatives that deal with those issues, if you would be 
willing to meet with me to determine how those are going to be 
addressed. I think it is better discussed outside of a public 
hearing because they are, after all, security matters that we 
don't want to discuss the details of. But I would like to have 
the opportunity to have that discussion with you as well. Would 
you be willing to commit to doing that?
    Mr. Gelber. I would be happy to meet with you, sir.
    Mr. Goodlatte. I appreciate it. Thank you very much.
    And I thank the gentleman for yielding.
    Mr. Marino. Mr. Bachus?
    Mr. Bachus. Thank you.
    Mr. Gelber, I want to quote 28 USC 566. The reason I am, I 
want everyone to sort of acknowledge this law in the Federal 
Code. It says, and I will quote, ``U.S. Marshals Service 
retains final authority regarding security requirements for the 
Judicial Branch of the Federal Government.''
    Now, the Administrative Office of the Courts says that the 
Chief Justice and local U.S. Marshals have final authority 
regarding security matters, which I think is consistent with 
this code.
    That having been said, the Chief Judge of the Northern 
District who is in charge of security, along with the U.S. 
Marshal, have both indicated to your agency that a statue 
placed 10 feet from the front door creates a serious security 
threat. Our U.S. Marshal, longstanding under both 
Administrations, says it is a perfect sniper hide. He further 
says that it creates a fatal funnel because you can actually 
hide behind that and you can see all the way through the 
rotunda to the very back of the courthouse. So essentially 
there is only one place to hide inside for a Marshal, and that 
is behind the statue of Hugo Black, which is much more 
priceless than this statue of Red Mountain in front of the 
building that the GSA insists be located there.
    It was removed, and now they want it back. This won't cost 
you a dime. I want you just to follow the law and honor when a 
chief justice and the U.S. Marshal in charge of security in 
that building says it is a security threat, please listen to 
them. Follow the law. I am not going to name names, but we have 
a letter to our chief justice, and also this is supplied by 
Jeff Sessions, my senator, where the GSA responded that they 
consulted before they made this decision. They did a security 
assessment and they said they consulted both the Federal 
Protection Service and the Administrative Office of Courts.
    The Federal Protection Service--and I can give you those 
things--they are in charge of not only the perimeter, they are 
in charge of non-judicial Federal buildings. So I think there 
is some confusion within GSA there. They may be responsible for 
some perimeter obligations, but it is the U.S. Marshal that is 
in charge of the actual security. The GSA said they consulted 
with the Administrative Office of Courts and with the Federal 
Protection Service. Well, one doesn't have any responsibility, 
the Federal Protection Service, for this building. The other 
one they consulted with was the Administrative Office of 
Courts, and Mr. Templeton, who they consulted there, actually, 
here is what he tells us.
    He tells us, in fact, no. He said I did not agree that it 
should be put back up. In fact, he said, and I will quote, ``I 
told Mr. Shaw that the Chief Justice and the local U.S. Marshal 
have final authority regarding security matters.'' In other 
words, he also said that he agrees with the U.S. Marshal's 
assessment of security concerns.
    So I just can't imagine how that gets to we consulted with 
the Federal Protection Service and with the Administrative 
Office of Courts and they agree with the GSA assessment.
    So as you meet with the Chairman and Mr. Holding and all, I 
am going to give you a letter from the Chief Justice. I just 
don't think it is getting--I think there is a misunderstanding 
on what the law is. And please, if nothing else, please sit 
down with your staff, like I do with mine, and say, look, the 
Chief Justice and the Marshal Service by law is charged with 
security. The Administrative Office of Courts says we would 
like to leave that final decision to them. And when they tell 
you that it is a threat to their people, honor that, honor 
that, particularly when you are talking about a piece of metal 
as opposed to human beings.
    I am not even going to ask you for a response. If you want 
to respond, you can.
    Mr. Gelber. I am aware of the issue, sir. We would be happy 
to work with the court and the Marshals Service and the 
Administrative Office of the Courts to pursue a resolution to 
this issue.
    Mr. Bachus. Thank you, I appreciate that. I think this is 
something you ought to kind of review and look at.
    Mr. Gelber. Thank you, sir.
    Mr. Marino. I think I am the last guy here to speak, so I 
am just going to get right to the point. But one issue I want 
to bring out is there is a difference between legislative 
jurisdiction and oversight jurisdiction. That is why they call 
us Judiciary, because we have oversight jurisdiction of matters 
concerning the administration of justice, and I think the 
administrative of justice is hindered here because it is 
handcuffing--excuse the pun--the courts based on what we have 
heard.
    Now, Mr. Gelber, you are a trooper. You drew the short 
stick, and you have been a perfect gentleman here today, and I 
just want you to know how much we appreciate that. Please don't 
take my colleagues' questions or statements personally, but 
there is an issue, and I think if we did anything today, we 
were able to get GSA, you representing GSA, and the courts 
together, and the architect, and perhaps maybe before the 
shovel is turned over in these situations, everybody who has a 
dog in the fight will be at the table and can eliminate these 
problems.
    I was a U.S. Attorney for quite a few years, spent a lot of 
time in a courthouse. My GSA guys were great. Every time I 
needed something from them, they were right there for me. I did 
have an instance where I wanted a doorway put in, and I know 
where the judges are coming from on this. One of the guys in my 
office, one of the attorneys, he is a construction guy too. I 
said how much will it cost us to put the door in, and I 
remember this precisely. It was $300, no more than that. That 
includes the door. But we got a bill well over $1,000 from GSA, 
and I know it is because of a lot of administrative issues that 
you personally have no jurisdiction over.
    But I want to go back to the issue concerning the brick 
veneer--do you know what I am referring to?--on the building, 
on the Poff. Would not a proper inspection--and let me qualify 
that first. Was there an inspection of that building? And if 
there were an inspection, wouldn't that have determined the 
condition of the veneer wall, of the collapsing? And if that 
were the case--and the primary tenant was the Veterans Affairs 
Regional Office. They were removed from that building. Should 
these costs have been factored into your decision to invest 
more than $50 million into the Poff Building, and were they 
considered?
    Mr. Gelber. Those costs were considered. There had been 
evaluations of the wall on the east and west sides of the 
facility. We felt while they were minor issues, they were 
manageable in place. As we progressed with the ARRA project, we 
became aware of greater deterioration to those walls on the 
east and west facade, and as a result of that new information, 
that is why you have the proposal, or why the Congress has the 
proposal before it for additional monies to be spent at that 
facility.
    Mr. Marino. Can you give us an indication of what the cost 
would be to renovate the 13th floor for the director of the 
Veterans Affairs Regional Office? GSA does expect to be able to 
relocate the entire operation of the VA to the Poff Federal 
Building.
    Mr. Gelber. I don't have an exact figure for that, but I 
would be happy to provide that to you.
    Mr. Marino. Would you please, sir?
    Mr. Gelber. That would be okay.
    Mr. Marino. And regarding the cost/benefit analysis on the 
Poff Building, can you please explain why it took GSA more than 
a year to make it public? Why did GSA conduct it after the 
decision to expend more than $40 million on the renovation was 
already made, and is this behavior typical of the manner in 
which GSA performs its work?
    Mr. Gelber. In terms of releasing information of that 
nature publicly, we usually wait until an appropriate time in 
the project history so that we don't affect the government's 
ability to get good bids on the project. Given that, on this 
particular project I know there were some irregularities 
regarding the bidding.
    Mr. Marino. And my second question and last question, 
depending on my time, I am going to refer to a comment made by 
Judge Conrad.
    Judge, I want to make sure that I am right on this. Did you 
state that after all the disruptions and expenses, the building 
was no more functional, less functional?
    Judge Conrad. Yes, I said that, and I stand by that 
statement.
    Mr. Marino. Okay. With that, sir, Mr. Gelber--thank you, 
Judge--with what you know, did you consider the Poff Building 
to be a hallmark in taxpayer savings? And do you personally 
consider the project to be one that shows GSA to be a 
responsible steward of taxpayer dollars? Because--let me 
finish; I don't want to sandbag you here--because the GSA 
spokesperson, Gina Gilliam, characterized it in the press 
release dated June 21, 2010, as a responsible steward of 
taxpayer dollars.
    Mr. Gelber. I think the intent of that project was to 
maintain a Federal asset, and that is what GSA did. I 
understand that the court feels that there was no visible 
improvement in the facility. From GSA's perspective, by 
maintaining the infrastructure, it maintained that facility in 
a better condition than if we had let that infrastructure 
further deteriorate.
    Mr. Marino. Okay. I have one more question, and maybe if 
you want to think about this, that I want to ask Chief Judge 
Conrad, if you don't mind, sir. When GSA's Inspector General 
determined the agency had violated Federal law in awarding the 
construction contract and not seeing to it that taxpayers had a 
fair and reasonable price for the work, he recommended GSA not 
exercise a $7.6 million option to improve security at the 
building and a $4.5 million option to improve life and safety.
    How does it make you feel to know the reason GSA never 
performed this critical work was because of their failure to 
follow the law?
    Judge Conrad. It is disturbing, and I will have to say that 
when we were first advised of the stimulus project, one of the 
keynotes of that communication was that the money was going to 
be spent to address unmet security needs. My ears perked up 
because we had more than our share of unmet security needs in 
the Poff Building, and I saw this as a way, a mechanism of 
getting some of these things addressed.
    As the project progressed, we came to understand that there 
were to be no security enhancements, there were to be no 
improvements, and now I am advised that perhaps there were 
violations in procedures in not undertaking to do those things.
    Now, at the conclusion, in the last days of the project, we 
are being advised that to the extent the building needs these 
security upgrades, and we desperately need to have some, 
perhaps more so than before, the court is going to have to fund 
these ourselves. And if we do not, along with the other tenant 
agencies, the improvements are not going to be made.
    So it is very disturbing. It is very bothersome in terms of 
how we advise our employees about the performance of their 
functions. They had to endure these many months of hardship, 
and now they are given to understand that they are no better 
off in terms of security, in terms of working environment, than 
they were at the outset. It is bothersome.
    Mr. Marino. Okay. And lastly, do you know of anyone at GSA 
who has been held accountable for this illegal action which 
undeniably led to you and members of the public being exposed 
to unnecessary risk over the past 4 years?
    Judge Conrad. Congressman, I do not. As a judge, I make 
mistakes. I make more than my share. But the Court of Appeals 
is very quick to tell me about those mistakes, and I am very 
quick to try to rectify those. I don't think anyone would 
seriously contend--and I appreciate Mr. Gelber's candor today. 
I don't think anyone would contend that there weren't many 
mistakes made at the Poff Federal Building in Roanoke, and that 
is my biggest concern looking back, in retrospect, that it 
seemingly is going to be a situation where no one is held 
accountable.
    Mr. Marino. And, Mr. Gelber, respectfully, I think you have 
a little bit of a list to take back to your superiors and have 
a discussion with them, and we appreciate that.
    That concludes our hearing today, and I want to thank all 
the witnesses for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    This hearing is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Material submitted by the Honorable George Holding, a Representative in 
Congress from the State of North Carolina, and Member, Subcommittee on 
            Courts, Intellectual Property, and the Internet

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                <F-dash>

                Prepared Statement of Thomas A. Schatz, 
              President, Citizens Against Government Waste

    My name is Thomas A. Schatz, and I am president of Citizens Against 
Government Waste (CAGW). CAGW was founded in 1984 by the late 
industrialist J. Peter Grace and nationally-syndicated columnist Jack 
Anderson to follow up on the recommendations of the Grace Commission 
report under President Reagan. Since its inception, CAGW has been at 
the forefront of the fight for efficiency, economy, and accountability 
in government. Over the past 30 years, CAGW has helped save taxpayers 
$1.2 trillion through the implementation of Grace Commission findings 
and other recommendations.
    We commend the House Judiciary Committee for holding this hearing 
today on the General Services Administration's (GSA) ``Failure to Meet 
the Needs of the Judiciary: A Case Study of Bureaucratic Negligence and 
Waste.'' On behalf of CAGW's 1.3 million members and supporters 
nationwide, I am pleased to submit this testimony for the record.
    CAGW does not accept government funds. The organization's mission 
reflects the interests of taxpayers. All citizens benefit when 
government programs work cost-effectively, when deficit spending is 
eliminated, and when government is held accountable. Not only will 
representative government benefit from the pursuit of these interests, 
but the country will prosper economically because government 
mismanagement, fiscal profligacy, and chronic deficits soak up private 
savings and crowd out the private investment necessary for long-term 
growth.
    When Congress passed the American Recovery and Reinvestment Act 
(ARRA or stimulus) in 2009, funding was substantially increased for 
many existing agencies and programs. As one example, the GSA received 
$4.5 billion to improve the efficiency of federal buildings. Stimulus 
money was supposed to be spent within a limited period of time on 
``shovel ready'' projects. As a result, GSA squandered millions of 
dollars on projects such as the renovation of the Poff Federal Building 
in Roanoke, Virginia and landscaping for the Pete V. Domenici U.S. 
District Courthouse in Albuquerque, New Mexico.
    The Poff building project was intended to improve the building's 
efficiency, which was not an urgent problem. According to the November 
6, 2010 Roanoke Times, GSA officials hastened the renovation because of 
``an expedited process that applied to projects funded by stimulus 
money.'' A cost-benefit analysis was conducted after GSA had already 
awarded a contract. GSA also guaranteed its bidders a maximum price of 
$42 million (later amended to $39 million) for the bulk of the 
renovation, violating federal procurement law and ensuring that a 
competitive bid could not be attained. Despite the effort to rush 
forward with the renovation, ground was broken more than two years 
after the stimulus bill was enacted. To date, GSA has spent $65 million 
and the agency claimed that the energy upgrades were substantially 
completed in January, 2014. However, problems remain in regard to 
security, and all of the prior tenants have not yet moved back into the 
14-story building.
    The renovation greatly inconvenienced the building's two primary 
tenants, the Department of Veterans Affairs Roanoke Regional Office and 
regional branches of the U.S. federal court system. After issues arose 
regarding the security of the court system's office space, federal 
judges asked GSA for a reevaluation of the project's efficiency and 
security. The Veterans Affairs office was forced to relocate to 
multiple locations during construction, worsening an existing backlog 
of processing claims and leading a veterans lobbying group to file 
court papers asking to halt the move.
    GSA has attempted to deflect inquiries about the process, which 
have frequently come from House Judiciary Committee Chairman Bob 
Goodlatte (R-Va.), whose district includes Roanoke. Rep. Goodlatte has 
been repeatedly frustrated by GSA's delayed or unsatisfactory 
responses. According to an article in the September 27, 2010 Roanoke 
Times, when Rep. Goodlatte requested a copy of an 84-page feasibility 
study on the renovation, GSA gave him a version with key sections 
redacted, explaining that this was necessary for the protection of its 
``deliberative process.''
    The Poff building is not the only example of excessive and wasteful 
spending by GSA with stimulus funds. Federal judges at the Pete V. 
Domenici U.S. District Courthouse in Albuquerque asked GSA to fix a 
garage leak and replace its grass with a more efficient species. 
Instead, as the Albuquerque Journal reported on February 13, 2013, GSA 
put together a $3.4 million makeover that totaled nearly one-tenth of 
the entire building's original $41 million cost. In this case as well, 
the intended beneficiaries of the project objected to the wasteful 
spending. Yet GSA remained enthusiastic about the project, even 
professing its hope that the landscape would win an award.
    Perhaps GSA perceives these projects as relatively inconsequential, 
given that it was provided $4.5 billion for improving building 
efficiency by the ARRA. Yet even if the sum is merely a drop in the 
ocean of GSA's budget, the bill is being footed by overburdened 
taxpayers who deserve to see their dollars invested efficiently and 
with adequate forethought.
    CAGW has closely tracked earmark spending since the organization 
issued its first Congressional Pig Book in 1991. Since fiscal year 
1992, Congress has earmarked $2.2 billion for courthouses. While 
earmarks are (supposedly) no longer being added to appropriations bills 
due to the congressional earmark moratorium that does not mean taxpayer 
dollars should otherwise be wasted on courthouse construction and 
renovation.
    There is no excuse for mismanaging the taxpayers' money. The 
American people would be well-served if every day government officials 
came to work thinking first and foremost about how they could better 
manage the taxpayers' money and solve problems effectively with their 
substantial resources. In other words, each agency should ask questions 
first and spend money much later, if at all.
    I appreciate the opportunity to submit this testimony, and would be 
glad to answer any questions.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
